<html>
<title> - BEST PRACTICES AND NEXT STEPS: A NEW DECADE IN THE FIGHT AGAINST HUMAN TRAFFICKING</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                     BEST PRACTICES AND NEXT STEPS:
          A NEW DECADE IN THE FIGHT AGAINST HUMAN TRAFFICKING

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                            AND HUMAN RIGHTS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 13, 2011

                               __________

                           Serial No. 112-88

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
66-898                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e6819689a6859395928e838a96c885898bc8">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

        Subcommittee on Africa, Global Health, and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
JEFF FORTENBERRY, Nebraska           DONALD M. PAYNE, New Jersey
TIM GRIFFIN, Arkansas                KAREN BASS, California
TOM MARINO, Pennsylvania             RUSS CARNAHAN, Missouri
ANN MARIE BUERKLE, New York


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Luis CdeBaca, Ambassador-at-Large, Office to 
  Monitor and Combat Trafficking in Persons, U.S. Department of 
  State..........................................................     5
Ms. Deborah Cundy, vice president, Carlson Companies.............    27
Ms. Chai Ling, founder, All Girls Allowed........................    34
Ms. Nancy Rivard, president and founder, Airline Ambassadors 
  International..................................................    45
Mr. Philip Kowalcyzk, president, The Body Shop...................    49
Mr. Kevin Bales, co-founder and president, Free the Slaves.......    56
Mr. David Abramowitz, director of policy and government 
  relations, Humanity United.....................................    67

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Luis CdeBaca: Prepared statement...................     8
Ms. Deborah Cundy: Prepared statement............................    30
Ms. Chai Ling: Prepared statement................................    37
Ms. Nancy Rivard: Prepared statement.............................    47
Mr. Philip Kowalcyzk: Prepared statement.........................    52
Mr. Kevin Bales: Prepared statement..............................    59
Mr. David Abramowitz: Prepared statement.........................    71
The Honorable Donald M. Payne, a Representative in Congress from 
  the State of New Jersey: Prepared statement....................    82

                                APPENDIX

Hearing notice...................................................   108
Hearing minutes..................................................   109
The Honorable Russ Carnahan, a Representative in Congress from 
  the State of Missouri: Prepared statement......................   110
The Honorable Ted Poe, a Representative in Congress from the 
  State of Texas: Prepared statement.............................   111
Questions submitted for the record to the Honorable Luis CdeBaca 
  by the Honorable Donald M. Payne, a Representative in Congress 
  from the State of New Jersey...................................   112
Questions submitted for the record to the Honorable Luis CdeBaca 
  by the Honorable Ted Poe, a Representative in Congress from the 
  State of Texas.................................................   120
The Honorable Luis CdeBaca: Material submitted for the record....   121
Ms. Nancy Rivard: Material submitted for the record..............   129
Mr. David Abramowitz: Material submitted for the record..........   131
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, and Human Rights: Material submitted for 
  the record.....................................................   140


BEST PRACTICES AND NEXT STEPS: A NEW DECADE IN THE FIGHT AGAINST HUMAN 
                              TRAFFICKING

                              ----------                              


                         MONDAY, JUNE 13, 2011

              House of Representatives,    
         Subcommittee on Africa, Global Health,    
                                   and Human Rights
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room 2172 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order.
    I'd like to welcome all of you this afternoon to this 
important hearing on human trafficking. The focus, of course, 
is on the continuing fight to end human trafficking in all of 
its forms and manifestations.
    Significant progress has been made since I authored the 
landmark legislation known as the Trafficking Victims 
Protection Act of 2000, or the TVPA, to address trafficking 
around the world almost a decade ago. But new forms and methods 
of trafficking are consistently and constantly emerging, and we 
have to constantly recalibrate our efforts to stay ahead of 
them.
    At this hearing, we'll be examining in particular the most 
effective policies and tools developed by the government and 
the private sector to combat human trafficking. No country, and 
few industries, are untouched by this pervasive human rights 
abuse.
    Traffickers use airlines to move their victims, hotels to 
exploit sex trafficking victims, and unsuspecting buyers to pay 
for goods that have been made with raw materials tainted by 
forced and bonded labor.
    It is estimated that there are anywhere from 12-27 million 
sex and labor trafficking victims in the world at any given 
time. We know that organized crime, street gangs, and pimps 
have expanded into sex trafficking at an alarming rate. It's an 
extremely lucrative undertaking. A trafficker can make some 
$200,000 a year off just one victim. Unlike drugs or weapons, a 
human being can be held captive and sold into sexual slavery 
over, and over, and over again. It turns a child, or a woman, 
or anyone into a commodity.
    And we are just beginning to understand the full scope of 
labor trafficking. The International Labor Organization 
estimates that countries import and export billions of dollars 
worth of goods made by labor trafficking victims. Unsuspecting 
buyers purchase these goods perpetuating the profits of 
traffickers and the misery of the victims.
    The TVPA was a landmark bill with a bold strategy that 
included sheltering, asylum, and other protections for the 
victims; long jail sentences and asset confiscation for the 
traffickers; and tough sanctions for the governments that fail 
to meet minimum standards prescribed by the Act.
    It was met, initially, with a wall of skepticism and 
opposition. And I think David Abramowitz remembers so well, on 
both sides of the aisle there were people who thought that it 
was a solution in search of a problem.
    When you talk trafficking, people thought you were talking 
about drug trafficking, and there was a very myopic and narrow-
minded view about that.
    One major problem, especially from the Clinton 
administration, was the naming and ranking of countries based 
on compliance with the establishment of commonsense minimum 
standards, clearly articulated prevention, protection, and 
prosecution benchmarks enforced by sanctions and penalties 
against egregious violators.
    Fortunately, reality won out over ignorance and a very, 
very fine bipartisan coalition was formed, and the TVPA was 
signed into law by President Clinton 2 years later after its 
introduction in the year 2000.
    The Trafficking in Persons Report, which is written by the 
State Department's Office to Monitor and Combat Human 
Trafficking, currently headed by Ambassador Luis CdeBaca, not 
only summarizes the rankings and performance of each nation 
every year, but also provides detailed recommendations as to 
how each country can improve its efforts.
    The report has become a resource and a diplomatic tool of 
extraordinary value. In the last 10 years, we have seen over 
130 countries change their laws to better fight human 
trafficking. Successful prosecutions have increased 
dramatically. The number of victims identified and rescued goes 
up significantly each year. But still, much more needs to be 
done.
    In 2009, close to 50,000 victims were rescued worldwide, 
more than any other recorded year; yet, this is just a fraction 
of the 12-27 million slavery victims suffering around the 
world.
    Parts of the TVPA were reauthorized in `03 and `05, and 
2008. Of course, some of it is permanent law, but those parts 
that needed to be reauthorized were done so, and we are now 
preparing to reauthorize sections of the legislation again this 
year.
    This hearing provides an opportunity, and an important 
opportunity, to see what new and effective measures are being 
taken by various stakeholders, and what the U.S. Government can 
do to help encourage and facilitate those efforts.
    Of particular interest are the evolving roles of public-
private partnerships. In the past 5 years, several effective 
initiatives that aim to prevent trafficking and assist victims 
had been undertaken by the private sector. Joining us at this 
hearing is a representative of Carlson Wagonlit, which has 
taken a lead in developing best practices for the hotel 
industry.
    The Body Shop is using their brand to raise awareness of 
human trafficking and to campaign for country-specific 
solutions. Airline Ambassadors, a non-governmental 
organization, is identifying gaps in trafficking prevention on 
airlines, and developing training for the worldwide industry.
    Other NGOs, such as All Girls Allowed, have exposed 
government policies, such as China's brutal one-child-per-
couple policy that fuels trafficking demand, and contributes 
directly to the exploitation of girls and women.
    I'm particularly pleased to welcome Mr. David Abramowitz as 
a witness before our subcommittee today. Prior to his current 
position with Humanity United, Mr. Abramowitz served for many 
years as chief counsel with the House Committee on Foreign 
Affairs, and he has been involved in the drafting and 
negotiations of the TVPA since it was first being worked on 
back in 1998.
    Mr. Abramowitz is well known as a leading expert in the 
human trafficking field, and is a stalwart advocate of 
trafficking victims around the world, and it's a privilege to 
have him here with us today; although, I'm used to seeing him 
right here. David, thank you for being here.
    This hearing will highlight the need to harness the 
insights and the expertise of government and various actors 
from civil society alike. Such coordinated efforts should 
always be an emphasis of public policy, but are particularly 
necessary in times of severe budgetary constraints, such as now 
facing our global economy.
    Such partnerships bring together a broader range of 
expertise, leverage resources to obtain better results, and 
spread awareness to people who can make a difference, but who 
may otherwise never hear about human trafficking.
    I look forward to hearing the testimonies of our witnesses 
as we look to strengthen the global fight against human 
trafficking. Mr. Payne will be joining us, our ranking member, 
very shortly, but I would like to recognize Ms. Bass for an 
opening statement, if she may.
    Ms. Bass. Thank you very much, Mr. Chair.
    Chairman Smith, human trafficking is a significant and 
complex international and national crisis that requires 
significant attention.
    Many organizations in my district in Los Angeles have 
demonstrated significant leadership in addressing trafficking 
both internationally and domestically. The leadership of the 
Coalition to Abolish Slavery and Trafficking, the Thai 
Community Development Corporation, the Covenant House are just 
three organizations that I'm proud to represent. And I'd like 
to thank their ongoing leadership in combating trafficking.
    I'd also like to recognize Chairman Smith for your diligent 
work and committed work to end trafficking around the world. 
Chairman Smith, your work on the Trafficking Victims Protection 
Act of 2000, and its subsequent reauthorizations have been 
tremendous, and I look forward to working with you on this 
year's bill.
    The United States Justice Department estimates that nearly 
18,000 men, women, and children are trafficked across out 
borders annually. Unfortunately, many victims do not receive 
the level of emotional and physical assistance that they need.
    One of the most disturbing elements of trafficking is that 
a large percentage of the trafficking victims are minors. In 
fact, the average age at which girls become victims of sexual 
exploitation in the U.S. is 13.
    These young victims require special attention and care. And 
as a long time advocate for children, and particularly foster 
youth, I will be introducing legislation that will strengthen 
the ability of child welfare professionals to identify and 
support victims, and will provide specialized support for 
trafficking victims within the foster care system.
    I look forward to working alongside my colleagues on this 
committee, as well as joining forces with our witnesses today 
to move this legislation forward.
    Last, I'd like to recognize our expert panelists today. 
Your leadership in combating trafficking is inspiring, and has 
truly made a difference throughout our world. I look forward to 
hearing your testimony today, and discussing how we can 
collaborate and expand the best use to curb trafficking through 
prosecution, protection, prevention, and public-private 
partnerships. Thank you very much.
    Mr. Smith. Ms. Bass, thank you very much for your 
statement, and for your comments, and I look forward to working 
with you on these very important issues.
    I'd like to now yield to Ms. Buerkle, the Gentlelady from 
New York.
    Ms. Buerkle. Thank you, Mr. Chairman.
    It is a sobering statistic that 12.3 million people around 
the world are in forced labor, bonded labor, and forced 
prostitution. Unfortunately, too many of us still think 
primarily of the Civil War when we hear the term ``slavery.'' 
We are disconnected from certain ugly realities of our modern 
world.
    I agree with Chairman Smith that effectively fighting 
worldwide trafficking and slavery requires a collaborative 
approach that involves all levels of the government, NGOs, law 
enforcement, and health care professionals, as well.
    I would add one more partner to that list, the American 
people.
    Trafficking and enslavement of millions of people should be 
an issue of grave concern to all Americans. We should be 
engaged because it not only affects us as a country, our 
security, and our commerce, but it also speaks to our common 
humanity.
    I applaud the witnesses today for their diverse efforts to 
address what I believe is the seminal global issue of our time. 
Thank you to Chairman Smith for all of your efforts, and all 
that you do to promote human rights.
    I look forward to hearing from all of our panelists during 
the next question and answer period, as well as their 
testimony.
    Thank you, Mr. Chairman, and I yield back my time.
    Mr. Smith. Ms. Buerkle, thank you very much for your 
statement, and for your leadership on human rights issues in 
general, and on trafficking in particular. Thank you.
    I'd like to now welcome to the witness table Ambassador 
Luis CdeBaca, who coordinates U.S. Government activities in the 
global fight against contemporary forms of slavery.
    Ambassador CdeBaca directs the State Department's Office to 
Monitor and Combat Trafficking in Persons, which assesses 
global trends, provides training and technical assistance and 
advocates for an end to modern day slavery.
    Ambassador CdeBaca formerly served as counsel to the House 
Committee on the Judiciary, where his portfolio for Chairman 
John Conyers included modern day slavery issues. He has also 
served as a Federal prosecutor with the Department of Justice, 
where he convicted dozens of abusive pimps and employers, and 
helped to liberate hundreds of victims from servitude.
    I want to, on a very personal note, thank the Ambassador 
for his exemplary commitment to ending this heinous practice. 
He eats, sleeps, and breathes this issue. You talk to him and 
he's a man with an idea every day on how to combat slavery. So, 
again, we are well served as a country having him at the helm 
over at Department of State. Mr. Ambassador.

 STATEMENT OF THE HONORABLE LUIS CDEBACA, AMBASSADOR-AT-LARGE, 
   OFFICE TO MONITOR AND COMBAT TRAFFICKING IN PERSONS, U.S. 
                      DEPARTMENT OF STATE

    Ambassador CdeBaca. Thank you, Chairman Smith and members 
of the subcommittee. Thank you for the invitation to testify 
today, and for your leadership in the fight against modern 
slavery.
    More than 10 years ago, a group of women who had been 
enslaved in the commercial sex trade by the Cadena family in 
Florida testified before this committee. As a Federal 
prosecutor, I brought over a dozen of their traffickers to 
justice. It was their courage that led the way to the path-
breaking legislation that updated our anti-slavery laws and 
launched a new abolitionist movement.
    Looking back, we've seen the effects of this decade of 
development, cases ranging from upstate New York to Georgia, 
from New Hampshire to Saipan. The TVPA has had dramatic results 
at the Federal level, and state and territorial governments 
have followed.
    Just in the last few months we've seen legislatures from 
Washington and Hawaii, to Vermont and Tennessee becoming among 
the most recent to pass laws that track with the TVPA, and we 
hope soon that we'll see universal adoption of modern anti-
trafficking laws in all of our states and territories.
    We've seen innovators, such as the witnesses that you've 
brought together for today's hearing. We've seen results from 
the Federal Government, and I'd offer for the record a document 
prepared earlier this spring by the Cabinet-level task force 
about those activities. But even now we see a movement that is 
maturing and expanding.
    With governmental leaders like Washington State Attorney 
General Rob McKenna, who next week when he is sworn in as 
president of the National Association of Attorneys General, 
will make trafficking the flagship issue of his term.
    With civil society heroes like Rachel Lloyd, whose 
innovative methods at GEMS are helping girls on their journey 
out of modern slavery and back into society. With successes 
like the National Human Trafficking Resource Center operated 
for HHS by the Polaris Project, which receives an ever-growing 
number of calls linking victims up with NGOs and law 
enforcement who can help them. With coalitions of NGOs and 
advocates, such as the Freedom Network, the New York State 
Anti-Trafficking Coalition, U.S. PACT, Demand Abolition, ATEST, 
and more. We're working for real-world results rather than just 
symbolic gestures. And bloggers, like Amanda Kloer and Youngbee 
Dale, who are using new media to inform, inspire, cajole, and 
change.
    Because in a decade of delivery, it is results that matter. 
The symbolic work has largely been done, the baseline work of 
definitions and concepts, and laws and programs. That's been 
very much done, achieved consensus and stability, but around 
the world, as well as at home, it is implementation and results 
that will make or break this movement in the next decade.
    Having working on the original TVPA and subsequent 
reauthorizations, I know all too well that while nobody favors 
human trafficking, good people who care deeply sometimes 
disagree about how best to fight this crime.
    Mr. Chairman, you've worked to bring together those diverse 
voices and to ensure that the United States remains innovative 
and in the lead. Indeed, the careful balance that you struck in 
the 2008 reauthorization ensured that the United States' 
definition of trafficking and the application of minimum 
standards would continue to drive international norms. The 
vision of the TVPA and the carefully crafted compromises of the 
2008 bill deserve the continued support of this body.
    I would like to take one note of personal privilege and 
urge this subcommittee and the full committee to continue one 
of the most important things that Congress can do, and that is 
to get out on the road and see these people for yourselves. Get 
out on the road and have your staff see these people.
    One of the things that made the 2008 bill reflect the 
reality on the ground, for instance, was a trip that Sheri 
Rickert from your staff, myself, and some others were able to 
take to Thailand and Cambodia to go into the shelters, to go 
into the red light districts, to see human trafficking once and 
for all. And I think that that's something that, unfortunately, 
again in this time of budget constraints, in this time when 
there's so much pressing work to do at home we often don't 
remember that it's those trips, it's those experiences, it's 
holding the trafficking victims in your arms that informs what 
we then come back and do here in Congress, or in the 
administration. So, I certainly would urge that kind of 
continued involvement on the part of the staff and members of 
the committee.
    The challenges facing the United States and governments 
around the world might not be, at this point, so much issues of 
creating new legislation as the often more difficult activities 
of implementation, political will, and resources. So, in my 
written testimony I've outlined more fully a range of promising 
practices and forward-looking innovations that will help 
governments live up to the commitments that they've made, and 
shape the next 10 years as a decade of delivery.
    These are solutions that harness the power of the business 
community and the consumer, but also challenge them, challenge 
them to know as much about their slavery footprint as they want 
to know about their carbon footprint, to advocate locally and 
nationally for a world without slavery.
    And to reject the culture of ``boys will be boys,' and 
choke off the demand for commercial sex and cheap goods that 
fuels this crime.
    But as important as innovation and partnership with civil 
societies are, it remains a core governmental responsibility to 
fight against modern slavery. And the best tool for assessing 
those efforts is, and continues to be, the annual Trafficking 
in Persons Report.
    Leaders in Africa, Latin America, and around the world have 
credited the report as a motivating factor for their actions as 
governments. As Congress considers reauthorizations, it is 
important that we maintain and strengthen this diagnostic and 
diplomatic tool.
    Because it's incumbent upon governments around the world to 
go farther than just acknowledging the problem exists, and 
passing laws that criminalize all types of human trafficking, 
moving forward our measure of success, whether assessing 
foreign governments or our own, can no longer just be whether a 
government has enacted a law that looks good on paper; but 
rather: ``Is that law implemented broadly and effectively?''
    All governments can and must do more. If otherwise 
functioning legal systems aren't responding to the needs of 
trafficking victims, developed countries can't just stand by 
and presume that they're doing well. Developing countries can't 
absolve themselves of responsibility by pleading lack of 
capacity, because crimes are usually not solved with money, 
they're solved with political will and standards, and high 
expectations for police, prosecutors, and judges.
    Governments shouldn't just aggressively pursue traffickers, 
they have to couple enforcement with robust victim 
identification and protection efforts, and proactive attempts 
to prevent this crime. And we must affirmatively partner with 
NGOs. NGOs asking the government to act is not partnering, 
working together is.
    We've come a long way in the last decade. Last week an 
attorney for the women who testified here a decade ago joined 
me at a meeting of the United States-Russia Presidential Civil 
Society Working Group. She continues to represent those 
clients, but she also has become a global leader in victim 
rights advocacy, sharing the lessons that she has learned from 
them and dozens of subsequent clients.
    It struck me during those meetings last week that the 
lessons and examples of the Cadena case continue to inform how 
we fight this crime today. The strength of those women and 
girls, and their success today, 10 years later, and having been 
reintegrated into our society as survivors must continue to 
serve as a call to action for us to deliver on the uniquely 
American promise of freedom.
    We must continue to be a strong voice for those women, for 
other survivors, and the millions of victims who remain lost in 
the shadows unable to break free or speak out. It is they who 
inspired a decade of development. It is us who owe them a 
decade of delivery. Thank you.
    [The prepared statement of Ambassador CdeBaca follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Mr. Ambassador, thank you very much for your 
testimony.
    Mr. Marino, do you have any opening statement?
    Mr. Marino. No.
    Mr. Smith. Thank you.
    Let me just begin the questioning with a couple. First of 
all, with regards to the TIP office, and I know that these 
kinds of requests need to go through Office of Management and 
Budget, but do you have sufficient staff, Mr. Ambassador, to do 
the extraordinarily important work that you and your staff do?
    Ambassador CdeBaca. Well, you certainly identified the 
route that that question needs to go through. We, certainly, 
have seen the advantage of having more staff in the office over 
the last 1\1/2\ years. We've grown such that we've been able to 
add a person or two to each of our teams. We have four teams of 
public engagement which works very much with not only here in 
the Congress, but our public-private partnerships, a lot of our 
prevention activities, the program staff, the political affairs 
staff that does the report each year, and our admin staff.
    And one of the things that we've seen, as we have been able 
to add a couple of bodies to each of those teams, is we're able 
to move past merely a report that accuses a country of doing 
something to a relationship with those countries, both a 
diplomatic relationship and a programmatic relationship. So, if 
we maintain those levels we'll be able to continue to serve 
those relationships at the high level that we're doing right 
now. If we had more staff, we would certainly look to having 
even more engagement. We have certainly seen how that lower 
caseload, as it were, is achieving results in countries.
    When I first came to the office, some of our reporting 
officers had 35 or even 40 countries on their docket, and now 
we're looking at 20 to 25 countries at most. Optimally, if we 
could get down to 15 or so, people really would be able to have 
a very strong working relationship, and could achieve change in 
those countries.
    Mr. Smith. One of our witnesses in the second panel, 
Deborah Cundy, vice president of Carlson, you and I both heard 
her speak very eloquently as to what Carlson is doing to combat 
trafficking in the hotels. And she points out in her testimony 
that, ``In 2004, Carlson was approached by the U.S. Department 
of State to sign the travel industry's Code of Conduct,'' and 
she talks about how hotels are complicit in these activities, 
but often they're unwitting facilitators. And I'm wondering how 
the progress has been with companies other than Carlson. Are 
you finding a reluctance on the part of hotel chains and the 
like, and are they perhaps looking at the example of what 
Carlson has done, and looking to emulate it?
    Ambassador CdeBaca. One of the things that we've seen is 
that the Carlson Companies took a very brave, and unfortunately 
for many years a very lonely stand with the Code of Conduct. 
And it's only now in recent years that we've seen other of the 
big hotel chains start to respond.
    We've been trying to work with hotel companies, for 
instance, in a project that we have in Mexico trying to get 
materials out about child sex tourism, and other things. But at 
the end of the day, I think that the fear that many of the 
corporations had at being associated with this crime, even if 
it was that they were fighting it, the notion of having the 
term ``slavery'' associated with them was so nerve racking to 
many of these companies that when we would talk with them, they 
would say we'd love to do something. Of course, we're against 
modern slavery, but we don't really want anybody to know what 
we're doing.
    So, there's been a couple of the large hotel companies that 
we've talked to about things they can do within their own 
company. But at the end of the day, it seems like the response 
is coming after, to use a farm analogy, after the horse is out 
of the barn.
    We recently saw the Hilton Hotels look to join the Code of 
Conduct. That was after a scandal broke in one of their hotel 
properties in southeastern China. There's currently pressure on 
the Wyndham Group because of some cases in California in which, 
I think it was Travelodge, which is one of their brands, was 
implicated in a sex trafficking ring. So, this is something 
that we see more and more energy coming to as corporations that 
are getting the rude wake-up call of a case happening on their 
property, are now finding a potential place of refuge in the 
Code of Conduct. And we want to encourage them not to wait 
until something bad happens on their property, but to join the 
Carlson Companies earlier rather than later.
    Mr. Smith. You know, today we've invited Nancy Rivard from 
Airline Ambassadors, and Philip Kowalcyzk from The Body Shop, 
which are two other extraordinarily effective models for the 
rest of the industry. But I'm thinking in a subsequent hearing 
of inviting, and maybe they will come, maybe they won't, we did 
it with the Global Online Freedom Act, with Google and 
Microsoft, to invite some corporations that are not necessarily 
doing what they ought to be doing. But hopefully today is a 
gentle prod to all the rest to sign the Code of Conduct. And, 
more importantly, after you sign it, implement it, and be very 
faithful.
    Is there anything you'd want to say about those other 
companies, or to Airline Ambassadors, they deal with the 
airline industry, or with The Body Shop?
    Ambassador CdeBaca. Well, one of the things that we've 
seen, and we saw this recently now with Delta Airlines, signing 
the Code of Conduct, is that there should not be a 10- or 15-
hour respite for the trafficker once they've made it passed the 
gauntlet of law enforcement, or others in the source country, 
and before they come to our shores where they're going to 
exploit their people.
    That time on the airplane is a time when victims could be 
identified. It's a time when people can be educated. It's the 
ultimate captive audience. So, what we've seen, whether it's 
the work that Airline Ambassadors has done, it's trying to 
harness the energies of folks in the airline industry to do 
charitable work outside of their working hours, or what's 
happening within the confines of the plane. It's something that 
I think bears great looking at.
    What we've seen as far as The Body Shop is a very 
interesting extension of their brand. It wasn't designed, I 
don't think, to be one of the selling points of The Body Shop. 
My understanding is when it was founded, it was very much 
trying to be an ethical and responsibly sourced company, and it 
has then grown into one of its selling points. And it should be 
a selling point.
    A natural extension of what The Body Shop has done 
throughout the years, throughout the last 30 years as being a 
responsible corporate citizen has been the work that it's doing 
with ECPAT. So, what we see, especially with these petitions, 
use of The Body Shop as an advocacy vehicle, as a new model of 
corporate social responsibility.
    I think that one of the things that I would like to see, 
and The Body Shop is, I think, a pioneer in this, is moving 
past the idea that corporate social responsibility is something 
you do when business is done, or something that you do as an 
adjunct to your business; and, instead, the notion that this is 
actually part of a very productive business model.
    Mr. Smith. Let me just ask you--one of the hallmarks of the 
TVPA, and one of the most difficult provisions for us to get 
enacted into law--it held up the conference for a long time--
was the T-visa. We're hearing from some of the NGOs that the 
Family Unification Program, one of the hallmarks of it was 
bringing family members, in addition to providing asylum, to 
the individual who has been harmed by trafficking so that the 
retaliatory tool the traffickers had would be mitigated, and so 
that the trafficked person, the victim, would be able to 
perhaps get additional support as she or he goes through the 
healing process.
    How many family unifications is the State Department 
facilitating at this time? Has it stopped? And, if so, why?
    Ambassador CdeBaca. Well, there is currently a backlog in 
the Family Unification Program with the lack of a budget and 
the various negotiations that were going on around that, 
everything was put into limbo.
    This is a program that's been traditionally administered by 
the Bureau of Population, Refugees and Migration, so a PRM 
program. We have, now that the smoke has cleared and we've seen 
what the internal budget cuts are at the State Department, G/
TIP has kicked in some money in an agreement with PRM so that 
we can clear that backlog.
    As far as going forward, though, I think that there is an 
open question as to whether we have the funding to see that 
program into FY 2011 and 2013.
    Mr. Smith. Is it a matter of prioritization, or is it a 
matter of--I mean, there's not enough money in any other pocket 
of money that could be used?
    Ambassador CdeBaca. I will shake whatever trees need to be 
shaken. I think that we'll work with the committee and others 
to try to identify other trees to shake, if necessary. This is 
the first time that G/TIP has put money into this program. And, 
obviously, it was redirected away from other programs that we 
would have done. So, we'd like to find a solution to this, as 
well.
    Mr. Smith. Thank you. Anything we can do as a subcommittee 
I'm sure both sides of the aisle would be very happy to assist. 
Because, again, that was a very difficult provision. There were 
those who suggested at the time that both the T-visa itself and 
bringing family members over would be exploited. Nothing like 
that has happened over the last decade. If anything, it has 
been too slow in being implemented, so if we could be of 
assistance, please let us know.
    Let me ask just a few final questions. First, one of our 
witnesses will be testifying, Chai Ling, about the issue of--
from All Girls Allowed--the egregious issue, one of the worst 
issues I think ever to confront humankind, and that's the issue 
of the missing girls in China and in India, largely 
attributable to sex-selection abortion. It has become 
increasingly a magnet for human trafficking in both of those 
countries, especially in China, where the one-child-per-couple 
policy has made brothers and sisters illegal. And the question 
is, since this is a wave as men get into marriageable age and 
there's a dearth of potential brides out there, we know that 
the traffickers will, and are already, sweeping into action to 
buy and sell women to be exploited in China.
    I know the TIP report will be released soon. You might want 
to tell us when, today. We'd love to hear. But my hope is that 
your office has adequately brought that issue on board in terms 
of an exacerbating problem for trafficking and for victims.
    Ambassador CdeBaca. Indeed. Yes, Mr. Smith, this is 
something that we continue to report on, and something that I 
raise in my discussions with our Chinese counterparts. The 
Chinese have a inter-ministerial anti-trafficking council now, 
which makes it perhaps a little easier for us to plug up with 
them and be able to have some of these types of conversations.
    I think that as we pointed out in the TIP report last year, 
and has been in other interventions on our part, this notion of 
the skewed sex ratio in China, that as you say results from 
these policies, is having a destabilizing effect that we have 
noted, and will continue to discuss with the Chinese; 
especially as we see the importation of women from other 
countries, or the trapping of those who would try to flee the 
regime in North Korea. It is a problem, and it's something that 
we need to continue to push on.
    I think that one of the things that we hope to be able to 
tell you very soon is an exact date for this year's release of 
the TIP report. We will definitely make the June--June is when 
it's supposed to come out, and June is when it will come out. 
We've got a Secretary of State who's having to go wheels up a 
little sooner than she thought because of yet another volcano 
that's erupting, this time in Africa. So, scheduling the next 
couple of weeks has been difficult over the last few days, but 
we'll be letting your office know very soon exactly when the 
report will be coming out.
    Mr. Smith. Thank you very much.
    Let me ask you, Kevin Bales of Free the Slaves will be 
testifying shortly, and will bring a tremendous amount of focus 
on the issue of what's going on in eastern Congo. Frankly, I've 
been there and I have seen the devastation that has resulted 
from the minerals and wars, if you will, the exploitation of 
people, slavery.
    He and others have signed a letter that went to the 
Secretary of State opposing a delay or phase-in of the 
reporting requirements of Section 1502 of the Dodd-Frank Wall 
Street Reform Bill, and a letter was sent back on March 17th 
that puts the administration at least on the side of saying 
they are not for a delay. But I'm wondering where all of that 
is right now in terms of that section, is it being implemented?
    Ambassador CdeBaca. Congressman, I'd have to check on that 
and circle back to you. And I'll try to get you an answer 
forthwith.
    Mr. Smith. Appreciate that.
    Finally, just two final questions. David Abramowitz in his 
testimony, and we heard some similar testimony earlier at a 
hearing that you were at with the Helsinki Commission from the 
Solidarity Foundation, but he makes a very strong appeal that 
there be an elimination of fees for foreign labor contractors, 
fees assessed on the worker, if it's assessed on the company 
itself, apparently that's okay, but on the laborers themselves, 
full disclosure, and enforcement, and points out that the 
Wilberforce legislation had some very good provisions that were 
lost between the House and the Senate; they passed in the House 
but not in the Senate. And I'm wondering if you think the 
elimination of broker fees, labor contractor fees, is something 
that would help to mitigate labor trafficking, and if you would 
support legislative initiatives in that regard?
    Ambassador CdeBaca. I'll take those backwards, if I could.
    Mr. Smith. Sure.
    Ambassador CdeBaca. Obviously, I think we'll have to 
continue discussions with the committee and with your office as 
far as any particular legislation before we'd be able to give 
you feedback on supporting particular things. But I do think 
that this is something that we've been pointing out in the last 
few TIP reports. It's something that concerns us greatly, the 
amount of fees that are charged by these brokers, even when the 
broker delivers, and so often they do not. So often it's the 
bait and switch in the labor recruiting that lends itself 
toward a debt bondage or a peonage type of situation.
    The company store doesn't, necessarily, happen through the 
deductions later on. It's already happened before the person 
even travels because they owe so much money. So, it's something 
that we've been highlighting, and it's something that really 
clicked into focus for us, I think, in the last few months in 
the wake of the Libya problems, when so many of the returning 
Bangladeshi migrant workers who were coming back to Bangladesh 
are reporting to IOM that they--while they were in Libya before 
the Ghadafi regime began to target its own citizens, the 
workers of whom there are almost 3 million foreign guest 
workers, routinely had had their passports taken and owed so 
much money to the labor recruiters that they had to stay there, 
effectively, for every day of their 3-year term just to pay the 
debt back. So, what we've seen is people who, in effect, are 
renting themselves to the recruiters. They know that they're 
not going to get very much money.
    It's something that needs a solution, and we want to work 
with you and the committee to find a solution.
    Mr. Smith. I'm planning an additional hearing, and would 
invite the Department of Defense in to speak. And this would be 
a follow-up to two previous hearings that I put together 7 
years ago on the use of labor brokers to bring people into 
Iraq, where huge amounts of monies were being expended for very 
laudable goals, but these people were given--it was a typical 
modus operandi of a trafficked laborer, they took their 
passports, the agreement that they had made as to what their 
salary would be was drastically cut. They lived in subhuman 
housing, and we had Ambassador Miller here, coupled with some 
DoD representatives, and they kept telling us they're going to 
do better. And I'm wondering if they are doing better in terms 
of DoD. It was very discouraging.
    Ambassador CdeBaca. This is of concern. It's something that 
was raised in the Cabinet meeting earlier this year, it's 
something that Secretary Gates had a lot of--continues to have 
a lot of personal interest in, and we think that we'll be 
meeting with soon to be Secretary Panetta as soon as he's in 
place.
    What we've seen is, as you'll recall, the Wilberforce Act 
mandated the Inspectors General from DoD, State, and USAID 
start looking at these contracting situations. And what we've 
found is that in many cases the contracting officers did not, 
necessarily, know to include these types of provisions, these 
kind of safeguards into their contracts.
    So, as far as the State Department is concerned, we've 
issued a Procurement Information Bulletin, or a PIB, in this 
March with additional reporting requirements making sure that 
the contractors are providing trafficking and ``know your 
rights'' type of briefings to the third country nationals and 
subcontractors, making sure that they can't withhold the 
passports, informing them about the zero tolerance policy on 
the use of commercial sex, or human trafficking.
    So, we're seeing this idea of being able to tighten up the 
Federal Acquisitions Registry, but I do think that it's 
something that needs as much light shone on it as possible. We 
want to make sure that we are doing the right thing, that our 
slavery footprint, as well--if we're going to ask the consumer 
to look at their own slavery footprint, we have to look at it 
as a government.
    Mr. Smith. Thank you, Mr. Ambassador. Ms. Bass.
    Ms. Bass. Yes, thank you.
    I'd like to ask you a couple of questions related to 
technology and this issue. The Center for Missing and Exploited 
Children, advocacy groups, private companies and universities 
like the one in my district, the University of Southern 
California, have established guidelines and recommendations on 
how to utilize cutting edge technology to fight trafficking and 
child exploitations. Examples of innovative approaches include 
the use of photo DNA, mandating ISPs to stop child porn access, 
et cetera.
    I wanted to know how, in your opinion, the State Department 
has embraced these technologies, and incorporated into its 
toolkit to prevent trafficking?
    Ambassador CdeBaca. Well, the child pornography issue is a 
very serious one that the State Department deals with not 
through the TIP office, but through the Bureau of International 
Narcotics and Law Enforcement Affairs. So, one of the things 
that we've been doing through funding resident legal advisors 
and intermittent legal advisors is to take the U.S. techniques, 
whether it's through NCMEC, whether it's through the Child 
Exploitation and Obscenity section at Justice, whether it's 
through Project Safe Childhood, the ICACs, these other ways in 
which we're trying to prevent online exploitation of children, 
and making linkages, so there's linkages, for instance, with 
Scotland Yard and the Irish, and others. So, these are the 
types of things that through the Bureau of International 
Narcotics and Law Enforcement we are trying to make sure is 
available to other countries.
    One of the biggest problems that we've seen is that there 
are a number of countries that don't even have laws against 
child pornography. So, last week in the United States-Russia 
Presidential Joint Dialogue, for instance, the Child Protection 
Subcommittee was grappling with how can we get a normalization 
of these laws across the countries, because with the Internet, 
if there's no child pornography law in a small country in 
eastern Europe, well, they have an Internet portal. They'll 
be--all of the pedophiles will flock to that.
    Ms. Bass. Do you know if that's come up in the United 
Nations? Are there efforts there?
    Ambassador CdeBaca. Well, there are efforts through the 
UNODC, the U.N. Office of Drugs and Crime, and others to try to 
work on it. And through a number of the conventions, it's 
something that countries are supposed to be addressing. But as 
far as coming into compliance, it's taken a while. So, this is 
something that there's going to be a joint U.S.-Russian NGO 
summit in August in Lake Baikal to try to bring together folks 
from the Commonwealth, the independent states where, 
unfortunately, a lot of the child pornography that's being seen 
these days is coming out of eastern Europe. So, it's something 
that the State Department is very much looking at, and wants to 
be on the cutting edge of.
    Ms. Bass. So, this conference that you're talking about is 
dealing with this issue, specifically, or about a range of 
issues and this is on the list?
    Ambassador CdeBaca. A range of issues, and this is on the 
list, but it's going to be very much focused on this with the 
assistance of the National Center for Missing and Exploited 
Children.
    Ms. Bass. Thank you. Second question. Online trafficking 
has become a growing problem, especially in the face of large 
sporting events. I don't know if you saw some of the coverage 
that was done around the Super Bowl that a couple of the major 
cable news networks talked about.
    What efforts are being made to curtail this activity within 
the State Department? To you knowledge, has the FCC engaged in 
cracking down on Internet service providers and content Web 
pages? I also wanted to--kind of connected to that is, how do 
you prosecute traffickers without violating First Amendment 
rights, and how can government agencies work together to crack 
down on these abusers?
    Ambassador CdeBaca. Well, this is something that the FBI 
and the Justice Department have more direct jurisdiction over 
than does the State Department, since it's largely a domestic 
enforcement issue. But I think that you go right to the crux of 
the issue as far as regulating content.
    Now, soliciting a crime is, and I'm not a First Amendment 
scholar, but I was a prosecutor for a long time.
    Ms. Bass. And you worked on the Judiciary Committee, right?
    Ambassador CdeBaca. I did. And soliciting a crime is not 
typically thought of as protected speech, so there are some 
ways to deal with this.
    I think that one of the big issues, of course, is not 
necessarily through government regulation, but consumer to 
business activism. The old media version of this played itself 
out over the last year with the removal of the spa ads from The 
Washington Post. Most people knew that these spa ads were 
fronts for prostitution. This wasn't the Elizabeth Arden or the 
Red Door that was advertising in the sports page. The names 
were much more risque than that. But it took the advocacy 
community, it took business owners, it took folks saying to The 
Washington Post Company, I don't want to advertise in your 
paper because these other advertisers that are advertising 
something that you couldn't just look at it and say that's 
obviously illegal. It was advertising a spa.
    From a law enforcement perspective you couldn't say well, 
we know it's illegal so, therefore, we'll go after them, 
because that's not the burden of proof for a criminal case. So, 
the advocacy community, the other advertisers, and the people 
of the Washington area properly did something that the First 
Amendment likely would have stopped the DC government or the 
Federal Government from doing, which is they made is to The 
Washington Post feel like it should do the right thing and pull 
those ads out.
    So, I think that some of the pressure on the service 
providers, whether it's Backpage, Craigslist, et cetera who 
have seen these problems, some of that ends up needing to come 
from the consumer side as much as it does from the regulatory 
side.
    Ms. Bass. One final question, if you don't mind, Mr. 
Chairman. I'm still stuck on your earlier comments about the 
foreign workers on U.S. bases. Could you talk a little bit more 
about that so we have minors, we have people that U.S. 
companies are recruiting that get involved in sex trafficking 
on bases?
    Ambassador CdeBaca. One of the things that this committee 
has dealt with now since the Kosovo wars is the problem of the 
follow-on when we're deployed.
    Ms. Bass. The what?
    Ambassador CdeBaca. The follow-on. It's not just the 
American troops, it's the people who are providing services to 
them, it's the folks who are being brought in, often third 
country nationals----
    Ms. Bass. Right.
    Ambassador CdeBaca [continuing]. To run the canteens, to 
run the commissaries. There's an entire ``other than U.S. 
military'' presence.
    Ms. Bass. I understand that.
    Ambassador CdeBaca. And this is something that as far back 
as the Kosovo-Bosnia interventions, we saw this problem. There 
it was very much sex trafficking with the Albanian mafia 
setting up nightclubs and bars that were frequented by the 
contractors, were frequented sometimes, as well, by our troops. 
It was not uncommon to hear about police contractors, and other 
security contractors just flat out buying the women to have as 
their own as concubines for 6 months at a time.
    That has largely been regulated and policed, but what we've 
seen, there was an article in The New Yorker just last week, is 
that the recruiting of third country nationals into the 
missions in Iraq and Afghanistan continues to be a concern. 
It's a concern to us. We're working through the Inspectors 
General to try to make sure that those third country nationals, 
if they're brought in in support of our mission, that they're 
done so with full understanding of what they're going to be 
doing, how much they're going to get paid, how they're going to 
be used, if they have freedom of movement, all of those things; 
as opposed to being, basically, brought in in a debt bondage-
type of situation, confined to quarters, or used for both sex 
and labor trafficking.
    Ms. Bass. And, Mr. Chairman, this is what you said you were 
going to have a hearing on subsequently? Yes, I'd be very 
interested in that. Thank you.
    Mr. Smith. Thank you very much. Mr. Marino.
    Mr. Marino. Thank you, Chairman. Good afternoon, 
Ambassador.
    Ambassador CdeBaca. Good afternoon.
    Mr. Marino. I had a couple of questions that I was going to 
delve in to, but my friend and colleague, Congresswoman Bass, 
has sparked my interest in the child pornography side of this.
    I was a U.S. Attorney for quite a while, and that was one 
of my main missions, is prosecuting those that perpetrated, 
created, and sold child pornography. The toughest issue we ran 
into was dealing with countries like Russia, other European 
countries, as well, who just have no laws for pornography. A 
great deal of the pornography does come from overseas, not to 
mitigate that there is child pornography taking place right 
here in the United States.
    What have we been able to do as far as sanction-wise in 
getting Russia and countries like Russia to take a serious look 
at this, because in my opinion and in my experience, it is not 
even on the back burner. It's an issue that they share no 
interest in. It's an issue that generates billions of dollars 
for their economy. It's an area whereby those involved in the 
organized crime aspect of things are becoming obscenely 
wealthy, and it's all for the dollar, the money that they're 
making.
    So, we can send them letters, we can publicly make 
statements, but what are we specifically doing to address the 
issue with getting support from law enforcement, the President, 
the Prime Minister of Russia?
    Ambassador CdeBaca. I can only speak to that which I've 
been involved in, and we're not the lead on that, obviously, so 
we could make sure that we get a more fulsome response. But, as 
I mentioned earlier, I'm the head of the Migration Subcommittee 
for the United States-Russia Presidential Bilateral Commission, 
and my counterparts on the Child Protection Subcommittee, I was 
present when they were reporting out, and we do overlap, so we 
tried to make sure that the two committees lash up, especially 
as far as child trafficking, child slavery in Russia as often 
members of the African minorities, members of the migrant 
communities, whether it's the Uzbeks, or the Tajiks, or others. 
So, the child pornography is kind of one removed from me, much 
as in the U.S. Attorneys offices, the trafficking and child 
sexual exploitation AUSAs are often not the same person, but 
they have to work very closely together because there's so much 
of an overlap.
    One of the things that we've seen that's very positive over 
the last year with the Medvedev Presidency is the appointment 
of a Child Protection Advisor in the President's staff. For the 
first time, someone whose job it is to look at this. They're 
looking, among other things, at child pornography. They're 
looking at making sure that the orphanages don't simply become 
breeding grounds that the traffickers or pornographers show up 
on the 18th birthdays when the girls are released from the 
orphanages with no other options.
    So, we do think that this is something they're looking at 
holistically. We've talked to folks from the Duma who are 
working on the pornography legislation. And it's something that 
the Obama administration really wants to support through the 
relationship, what we call the reset with the Medvedev 
government.
    Mr. Marino. I'm not pointing any finger at any particular 
administration, but the only way to deal with this, in my 
opinion, is, first of all, worldwide recognition. But equally 
important is economic sanctions, severe economic sanctions, and 
I have not seen that yet from this present administration, and 
from past administrations, as well.
    What is it going to take for us to seriously, 
wholeheartedly start implementing these sanctions? Can you give 
us some suggestions at what perhaps we in Congress can do?
    Ambassador CdeBaca. Again, Congressman, I'd be hesitant to 
do so considering that my office is not the bureau that handles 
child pornography. So, I wouldn't want to speak out of turn, 
but it's something that I'll certainly pass on to Assistant 
Secretary Brownfield and his folks, and we can hopefully circle 
back and have a conversation.
    Mr. Marino. Good, thank you. I yield my time.
    Mr. Smith. Thank you very much.
    I do have two final questions. I've got a dozen, but I'll 
submit the remainder for the record.
    On May 11th, the Foreign Affairs Committee had a hearing 
chaired by Ileana Ros-Lehtinen. We heard harrowing testimony 
from past Peace Corps volunteers about how they had been 
sexually abused as volunteers. Pleas to Peace Corps supervisors 
to help to address unsafe situations, or for assistance 
following the attacks went unheeded, and in many cases were met 
with a ``blame the victim'' attitude.
    A major concern that I raised during that hearing with 
Aaron Williams, the Peace Corps director, was whether there 
were arrests of alleged perpetrators in foreign countries, 
whether or not they were followed up with meaningful prison 
sentences. Something that David will remember, we learned with 
the earlier TIP work that we would hear about arrests, but then 
we wouldn't hear about prison sentences, and some countries 
were actually gaming the system of saying, ``Oh, we arrested 
umpteen hundreds of people,'' but none of them went to jail. 
They didn't even get a slap on the wrist.
    I suggested that Peace Corps Inspector General, Kathy 
Buller, be in contact with the G/TIP office to ascertain 
whether or not there is a nexus between failures in prosecution 
and sentencing practices for sexual violence against Peace 
Corps volunteers in any given country, and such failures in 
prosecuting and punishing sex trafficking, and I'm wondering if 
there's a correlated lack of prosecutorial capacity, or perhaps 
political will with regards to this?
    And I would hope that you would meet with Ms. Buller, if 
you haven't already. We also believe, I believe and will be 
putting this into the reauthorization, that the Peace Corps, 
and I would appreciate your thoughts on this, ought to be part 
of the President's Interagency Task Force because they 
certainly, I think, could provide some insights there.
    Secondly, and this will be my final question, you mentioned 
that China has a ministerial anti-trafficking group that you 
are now engaging about the trafficking problems in the People's 
Republic of China, what is their response to concerns that the 
one-child policy and the consequent number of missing girls is 
feeding the trafficking pandemic in China?
    On June 1st, I joined Chai Ling and other human rights 
organizations at a very troubling press conference, and they 
showed a video about gendercide, the targeting of girls for 
destruction, simply because they happen to be girls, for sex-
selection abortion, and in some cases the baby is born through 
suffocation. And one woman even talked about how she applied a 
wet towel to her baby girls in order to destroy them simply 
because they were girls.
    And the bottom line of the video was that the most 
dangerous three words nowadays in some countries are these: 
``It's a girl.'' If it's a girl, she is subjected, whether an 
ultrasound finds it while the baby is still in utero, or the 
baby once born is discovered to be a girl, she is killed.
    How did the Chinese, your interlocutors, respond to that 
issue of they're creating a demand for trafficking? Do they 
understand that?
    Ambassador CdeBaca. I think their actions perhaps speak 
louder than their words, Mr. Smith. One of the things that we 
have, in fact, expressed concern to the Chinese over is that 
there have been so many cases of forced prostitution and forced 
labor that are going uninvestigated, and unprosecuted by the 
Chinese, when they're spending most of their time and efforts 
under the rubric of anti-trafficking on prosecuting child 
abduction cases by parents who want children, who can't have 
them, who are stealing children to be able to fill that need.
    So, I think that what we've seen is the effect. As far as a 
Chinese response that links the cause to the effect the way 
that we do, that's not something that we're seeing.
    Mr. Smith. Was it raised? Did we raise it, specifically, 
that the one-child-per-couple policy is creating a huge magnet 
for the traffickers?
    Ambassador CdeBaca. I've raised it with my counterparts 
from IMOAT in the course of talking about the problem of child 
abductions, the problem of the forced marriages whether it's 
from the South or from the Northeast, et cetera, and how this 
is kind of all of a part of the shortage of women, the skewing 
of the sex roles, et cetera; not sex roles, but the skewing the 
proportions. And it's something that we'll continue in those 
discussions to raise.
    It's something that I think that, again, if we look at 
their actions, they're having to act in a particular way 
because of the outcome. But as far as a desire to engage with 
us on that, that's not something that I'm seeing.
    Mr. Smith. I would hope that they realize there is a 
tsunami of sex trafficking. We've only seen the beginnings of 
it. In China today, as you know, the average age of 
marriageable age is 25. The one-child-per-couple policy has 
been in existence since 1979, so systematically these girls 
have been eliminated. They're just not there: the missing girls 
of China, and it's only going to get worse, so I strongly 
encourage that this be a front and center issue with your 
Chinese colleagues.
    Anyone else who would like to make a final comment?
    Mr. Marino. Chairman, may I--I'd like to at least like to 
get one more question into the record.
    Sir, could you please tell me first, do you have anything 
to do with monitoring child soldiers?
    Ambassador CdeBaca. The child soldiers is handled in two 
different ways within the annual Trafficking in Persons Report. 
In the particular country narratives, when we're looking at how 
a country is doing, we look at forced conscription as one of 
the forms of human trafficking. So, it goes into the country 
reports.
    There's also the Child Soldier Prevention Act, which is 
part of the TVPA Reauthorization of 2008, that mandates that a 
list be put together that has particular sanctions for being 
associated with that list that should be published in the 
Trafficking in Persons Report each year. That's handled by one 
of our sister bureaus, the Bureau of Democracy, Rights, and 
Labor. So, the answer is yes, but it's kind of a bifurcated 
system as we look at the child soldiers.
    Mr. Marino. Okay. Perhaps I could ask my question at least 
to get it on the record, and I could get a response sometime in 
the future.
    In 2010, the Trafficking in Persons Report identified six 
countries involved in recruiting and using child soldiers; 
Burma, Chad, the Democratic Republic of the Congo, Somalia, 
Sudan, and Yemen. President Obama waved sanctions for four of 
the six list countries, Chad, the Democratic Republic of the 
Congo, Sudan and Yemen.
    Given that one of America's tools to combat trafficking in 
persons in foreign nations is the prohibition of U.S. 
assistance for military defense and training do you have an 
answer, or could you get an answer for me why has the President 
issued waivers for these countries that the State Department 
has found to recruit and use child soldiers?
    Ambassador CdeBaca. We can get you something. There's, 
actually, I think something that was transmitted to Congress in 
the last Congress, and we'll try to make sure that we get that 
up to you.
    Mr. Marino. Thank you. I appreciate that.
    Ambassador CdeBaca. Thank you.
    Mr. Marino. Thank you, Chairman.
    Mr. Smith. Let me just--did you want to respond to the 
Peace Corps question?
    Ambassador CdeBaca. Yes, we will definitely link up with 
our Peace Corps counterparts. I think it is important.
    One of the things that we have been very much trying to do 
in the TIP office is to use the trafficking issue to have an 
impact upon both sexual violence and domestic violence, and how 
they're treated by a number of these countries. Here in the 
United States, we very much have built our anti-trafficking 
response, our modern anti-slavery response, on the gains of the 
last 30 years from the DV and sexual violence movements.
    What we recognize is that there's a lot of countries where 
it's the reverse. There hasn't been a sexual violence or victim 
rights movement. There hasn't been a domestic violence victim 
rights movement in these countries, but they're starting to 
work on trafficking. So, we want to be able to go to some of 
these countries and say look, these things that we've been 
telling you about trafficking, relationships of power, the need 
for serious law enforcement responses, the need for prevention 
and for cultural change, those things also need to happen on 
family violence, and sexual violence. So, we want to be able to 
have those conversations around rape and other things. So, 
we'll work with the Peace Corps.
    One of the things that I've noticed, however, is that at 
least historically, the Peace Corps was very loathe to get 
involved with things that they thought of as law enforcement-
like, because they didn't want to be seen as law enforcement 
training. They didn't want the possibility that they'd be kind 
of lumped in with the security services, or with other 
government agencies. So, that has been an issue, but we saw, 
for instance, with the Peace Corps volunteer in Belize, who was 
a Federal prosecutor who took 2 years off to go into the Peace 
Corps, simply because of his background, he necessarily ended 
up having an impact on the people in Belize. And, as a result, 
we've seen some change on the ground. So, when the Peace Corps 
is doing anti-trafficking work, it does make a change.
    Mr. Smith. This is my final question, but on an emergency 
fund for disaster areas, would you--is that something that G/
TIP would support, particularly in light of what happened in 
Haiti?
    Ambassador CdeBaca. Well, Mr. Smith, we actually were able 
to move a lot of money around very quickly last year in order 
to respond to the Haiti earthquake. And we've--in fact, one of 
my staff members is in Haiti right now following up. It's a 
problem whenever there's an emergent situation. We often then 
come back to Congress to try to get a supplemental, or to get 
some special budgeting done. But it's very much robbing Peter 
to pay Paul, and that's what we did last year, it's what we'll 
continue to do, when necessary. But there are programs in other 
parts of the world, some of them in Africa, and others, that 
had to be repositioned into Haiti, so anything that will make 
it so that we don't have to shut down an existing program to 
respond to an emergency would certainly allow us to respond 
that much more quickly, and that much more effectively.
    Mr. Smith. But wouldn't a more permanent fund, something 
that we could help craft through our reauthorization--Niger had 
their money and as you said, robbing Peter to pay Paul, a 
country that desperately needed the funding lost it in order to 
go to Haiti.
    Ambassador CdeBaca. It's certainly something that we've 
love to talk to your staff about. And as you put together the 
reauthorization, if there's particular language that we can 
look at, or that we can toss around, it's something that we'd 
certainly want to continue to talk about.
    Mr. Smith. Thank you. Mr. Ambassador, thank you. I deeply 
appreciate, we deeply appreciate your testimony and your 
leadership. And we'll move on now to our second panel. 
Appreciate it.
    Ambassador CdeBaca. Thank you, Mr. Chair.
    Mr. Smith. We'll begin first with Ms. Deborah Cundy, who is 
vice president in the office of the chairman at Carlson 
Companies, a global travel and hospitality company based in 
Minneapolis, Minnesota, which includes such brands as Radisson 
Hotels, Country Inn & Suites, Carlson Travel, and T.G.I. 
Friday's restaurants.
    For the past decade, Ms. Cundy has worked closely with 
Carlson chairman and former CEO, Marilyn Carlson Nelson, on 
projects involving gender equality, economic growth, and human 
rights issues, particularly the protection of children from sex 
tourism.
    Then we'll hear from Ms. Chai Ling from All Girls Allowed. 
She's the founder of All Girls Allowed, an organization 
dedicated to restoring life, value, and dignity to girls and 
mothers, and to revealing the injustice of China's one-child 
policy.
    Ms. Chai Ling also established Zenzabar Foundation, and 
serves as one of its board members. The Foundation supports the 
most inspirational and influential humanitarian efforts of 
student leaders to grant opportunities. A key student leader 
herself in the 1989 Tiananmen Square movement, Ms. Chai was 
subsequently named Glamour Woman of the Year, and nominated 
twice for the Nobel Peace Prize.
    We'll then hear from Ms. Nancy Rivard, who is president and 
founder of Airline Ambassadors International, which seeks to 
provide humanitarian aid to children in need, and international 
development and relief to underprivileged communities around 
the world.
    Ms. Rivard has expanded Airline Ambassadors International 
to include 6,000 members, including some outside of the airline 
industry. She started the Child Trafficking Initiative at 
Airline Ambassadors International, and created a training 
program that teaches airline personnel best practices to 
identify potential trafficking victims.
    We'll then hear from Mr. Philip Kowalcyzk who is the 
president of The Body Shop, North America. He has led The Body 
Shop's Stop Sex Trafficking of Children and Young People 
campaign across the United States, Canada, and Mexico, since it 
was launched in August 2009. He has ensured that comprehensive 
training and high-profile awareness programs were developed to 
support the mission of the campaign.
    Since the campaign began, under Mr. Kowalcyzk's leadership, 
the brand has won six awards for its efforts to raise awareness 
and drive positive change for children and young people 
affected by sex trafficking.
    Then we'll hear from Mr. Kevin Bales, co-founder of Free 
the Slaves, a non-profit organization that frees slaves, helps 
former slaves stay free, advocates that the government and 
corporations change policy, and carries out research.
    Mr. Bales is also emeritus professor at Roehampton 
University in London, and professor at the Wilberforce 
Institute for the Study of Slavery and Emancipation, at the 
University of Hull. He has authored several books on modern day 
slavery, including ``Ending Slavery: How We Free Today's 
Slaves,'' which outlines a 25-year plan to stop slavery and 
human trafficking, identifying what governments, the U.N., 
business communities, and individuals can do to end this 
egregious form of human rights abuse.
    Then we'll hear from Mr. David Abramowitz, who is director 
of policy and government relations at Humanity United, 
responsible for informing the organization's policy-based 
advocacy activities, leading outreach efforts to the U.S. 
Government, multilateral institutions, and international NGOs, 
and providing strategic counsel and advice to a broad range of 
grantees.
    As I mentioned in my earlier statement, Mr. Abramowitz 
previously served as chief counsel for the House Committee on 
Foreign Affairs working on the TVPA of 2000 in all of its 
iterations, its reauthorizations, as well as a wide range of 
other foreign policy legislation. So, Mr. Abramowitz, thank you 
for being here.
    I would like to note that Annette Lantos, the wife of Tom 
Lantos, the former chairman of this committee, is here with us, 
and she's always most welcome. Thank you, Ms. Lantos, for being 
here today.
    Ms. Cundy.

    STATEMENT OF MS. DEBORAH CUNDY, VICE PRESIDENT, CARLSON 
                           COMPANIES

    Ms. Cundy. Chairman Smith, distinguished members of the 
subcommittee, thank you for the honor to testify on an issue 
that threatens the well being of every society on our planet-
human trafficking.
    One of the most frustrating aspects of trafficking for all 
of us is that it's difficult to put metrics around it given its 
underground nature. But there is much that we do know. And 
increasingly, many in business feel that given what we do know, 
we must act. We know human trafficking is one of the largest 
illicit activities in the world. And we know that, for the most 
part, it affects the most vulnerable among us--the poor, the 
uneducated, the women and the children.
    We also know that it is projected to yield the traffickers 
$32 billion in annual revenue, and that's the dark side. But 
there are also rays of light. We know that in just one decade 
of focused efforts since the Palermo Protocol of 2000 and the 
historic Trafficking Victims Protection Act, we have made 
significant progress--particularly when it comes to awareness 
building among the public at large, and in recent years we've 
been encouraged by the increasing number of partnerships being 
forged across sectors to solve this complex problem.
    As background to my company's involvement in combating the 
sexual exploitation of children in tourism, it might be helpful 
for you to know that Carlson is a privately-held 73-year-old 
travel and hospitality company based in Minneapolis, Minnesota, 
which has a presence in 150 countries.
    Our hotel brands include Radisson, Country Inns & Suites, 
Park Inn, and Park Plaza, and most of these are franchised 
properties. We are also a majority owner in the Rezidor Hotel 
Group which operates our brands in Europe, Africa, and the 
Middle East, and is publicly traded on European stock 
exchanges. There are, in total, about 1,070 hotels operating 
under a Carlson brand employing more than 70,000 people. Other 
Carlson companies include Carlson Wagonlit Travel, which is the 
world's largest travel management company, and T.G.I. Friday's 
restaurants, but today I'll focus on the hotel operations.
    As Chairman Smith referenced, in 2004 Carlson was 
approached by the State Department to sign what is known as the 
travel industry's code of conduct to protect children from 
sexual exploitation. We were shocked to learn that at any 
moment in time more than 2 million children are being sexually 
abused. In the travel industry, this abuse is sometimes play 
out in hotels at tourism sites around the world. And, as 
mentioned, there are hotels that are complicit in these 
activities, but often they are unwitting facilitators.
    The code of conduct basically asks that the signatory train 
its employees in what to look for, and how to report it so that 
the employee base becomes a virtual army of eyes and ears. The 
code asks that the signatory raise awareness among its 
customers, that it includes language in its supplier contracts 
and corporate ethics policy repudiating the sexual exploitation 
of children, and that it reports annually on its activities to 
the code secretariat.
    I am proud to say that our chairman and then CEO of 
Carlson, Marilyn Carlson Nelson, made the decision that Carlson 
would be the first global North American travel company to sign 
the code, but not before we had some spirited internal debate 
about the pros and cons of such an action. We live in a 
litigious society. Our legal department was concerned about 
possible liability, and our public relations department was 
worried that the public would associate our brands with child 
trafficking. In the end, however, we have had nothing but 
positive reaction to our signing by all of our stakeholder 
groups.
    The brief video I'd like to share with you now is one 
element in Carlson's module on human trafficking that's 
included in what we call our ``Responsible Business'' training, 
which every hotel employee goes through. In this, you'll see a 
few scenarios designed to help our employees know what kind of 
behavior to watch for as it pertains to a possible child 
trafficking situation.
    [A video is played.]
    Ms. Cundy. While Carlson was the first global hotel company 
in North America to sign the code, we would have gladly given 
up our leadership position to have others join us. As a matter 
of fact, we have offered to share our training materials with 
any of our hotel competitors. We've always felt that there are 
many ways in which we can compete against each other, but on 
this issue, we must join hands.
    And, yet, for 7 years, we remained the only hotel company 
to sign until, as we've discussed, just a few months ago when a 
significant milestone was reached and the world's largest 
airline, Delta, and the global hotel chain, Hilton, both signed 
the code of conduct to protect children from sexual 
exploitation. And we salute our industry colleagues for doing 
so.
    To be fair, we know that while the majority of hotels have 
not signed, a few are doing some things to prevent the problem, 
but we feel that signing the code provides all of us with a 
consistent template for implementation of these programs, a way 
to share best practices, a third-party monitoring tool to 
insure that we are all doing our part, and a very public shared 
commitment.
    We look forward to the day when engagement by the travel 
industry in anti-trafficking initiatives is not considered just 
to be a corporate social responsibility activity, but rather a 
normal business practice. In fact, the goal should be that one 
day we will have normalized corporate efforts to combat human 
trafficking to such a degree that they are embedded in every 
industry.
    At Carlson, we believe that business can be one of the most 
powerful forces for good on the planet. We see examples of that 
in The Body Shop, in LexisNexis, in Manpower, Ford, Microsoft, 
Delta Airlines, Chiquita, and dozens of other companies that 
are using their resources, their problem-solving skills, and 
their voices to engage in this issue. They are examining their 
own practices, training their employees, and educating their 
customers and shareholders.
    But with any complex problem, no one sector can solve it 
alone. Business, government, civil society and academia must 
partner more closely. We must understand each other's unique 
roles and leverage them. There are pieces of this complex 
problem that each of us must be accountable for in 
collaboration with one another to solve.
    Conferences on the issue of human trafficking abound. They 
are enlightening and build networks to be sure. NGO coalitions 
are ever-forming. Trade organizations, such as the 
International Travel Partnership, are exploring this issue, and 
select businesses are self-organizing to mount their own 
efforts, like the Business Coalition Against Human Trafficking.
    All are useful endeavors, but perhaps the time is right for 
a formalized convening of a cross sector advisory board over a 
sustained period of time focused specifically on human 
trafficking. The hope is that this initiative would accelerate 
progress through partnerships and capitalize on the increasing 
desire of the business community to make its contribution to 
this fight.
    On behalf of Carlson, I thank the subcommittee for the work 
you are doing, and for the privilege to support your efforts.
    [The prepared statement of Ms. Cundy follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Ms. Cundy, thank you very much for your 
leadership, and for bringing that video. Having seen it in Rome 
when you presented it, both I and everyone there were greatly 
moved by your leadership, so thank you so much.
    Ms. Cundy. Thank you, Congressman.
    Mr. Smith. Ms. Chai Ling.

     STATEMENT OF MS. CHAI LING, FOUNDER, ALL GIRLS ALLOWED

    Ms. Chai. Well, thank you, Chairman Smith, for your three-
decade-long tireless work to improve human rights around the 
world. And on behalf of all the victims, we are grateful.
    There has never been a more dangerous time to be a child in 
China. The one-child policy and a culture preference for sons 
has led to the elimination of millions of China's girls, which 
in turn has created an influx of young men and an increased 
demand for brides. What has emerged is a black market for 
stolen children unlike anything the world has ever seen, 
leaving Chinese families fearful every day for their own 
children's safety.
    There are 37 million more men than women in China today. 
Even with the child rearing cost, purchasing a child bride is 
the most economical way to guarantee the son will have a bride 
when he's ready to marry. There's just simply not enough 
daughters for all the sons in China.
    June 1st, as you mentioned earlier, we were able to create 
a coalition and declaration against gendercide in China, and 
India, and around the world. We're thrilled to be part of that 
process. However, the child trafficking and gendercide is no 
longer just the issue of human rights, but issue of security of 
nations.
    According to leading experts and their presentation on June 
1st, unless China is doing something drastically to end the 
gender imbalance on their one-child policy, there will be over 
50 million men in 2020.
    What we're about to see in this video is that trafficking 
will not stop, but only increasing. So, please play the video 
right now.
    [A video is played.]
    Ms. Chai. Thank you. Now you have seen this devastating 
trafficking problem exposed in China, which is only growing. 
I'd like to speak for a moment of our anti-trafficking method 
at All Girls Allowed.
    All Girls Allowed exists to restore life, value, and 
dignity to girls and mothers, and to reveal the injustice of 
one-child policy. Our AGA team is inspired by our love to 
Jesus, and our desire to follow him as we're commanded to act 
justly, love, mercy, and work humbly with our God.
    We're grateful for our brave and courageous local 
volunteers in China. It is their work that keeps us going every 
day. We're thankful to Women's Rights in China, Sister Jing 
Zhang sitting right behind me; she has spent thousands of hours 
on the phone coordinating our rescue efforts on the ground in 
China. And, also, I'm grateful to the film crew who produced 
this--many parts of these clips are from China's Stolen 
Children. There is a 90-minute video, you're more than welcome 
to all take a look all the devastating trafficking situations 
taking place in China today. But we have seen some really good 
successes with this very small team, but dedicated believers, 
and we are able to make a difference in China.
    The first and foremost important step we do is to research. 
We examine specific areas of China to determine the root causes 
and the magnitude of the trafficking problem. And this map is 
China, and you see the red dot is Fujian province. It's a hot 
bed for trafficking. We found after months of research a city 
with 3 million people that could have up to 600,000 people as a 
result of child bride trafficking.
    [Another slide is displayed.]
    Ms. Chai. These are very young girls who are trafficked and 
sold to marry men in that city as a result of these 37 million 
excess men that will not be able to find wives because their 
wife was eliminated under China's one-child policy, and the 
preference for sons.
    So, in 2003, a young woman who was trafficked in as a child 
bride in her 20s was beaten to death, and to make the case, and 
show to stop all the rest of the girls from escaping. The 
Putian village was widely known as Child Bride Village and the 
government has not addressed this problem.
    These women in the photos are still looking for their own 
families after being sold and forced to marry.
    A second method we use is countrywide rescue campaigning. 
We have names, photos, and relevant information for over 2,175 
children who are currently missing in China. Parents who lost 
children campaign together, tour the country with banners, 
pamphlets, and rescue hotline numbers hoping to free children 
and create awareness. This photo shows the banner that we use 
on campaigns. For the hearing, we'll unroll one of them here 
just so you can get a taste and flavor of what it's like to try 
to rescue the children in China. And here are the names and the 
profiles of these missing children. It's a massive amount of 
work by all volunteers, many families of the parents, and they 
have the names of the children, and when they were stolen or 
trafficked, and how to contact them, and what the physical 
characteristics that could help identify them as well.
    We would love to get your help, Chairman Smith, to send 
this to the Chinese leaders, and to the counterpart who is 
doing some work to end the trafficking of children, so they can 
help these parents who have put their life on hold, and their 
family on hold while looking for their lost ones.
    I want to share some good news. On one of the campaigns a 
worker found this young baby, Little Bean. She was only 3 years 
old when she was trafficked. She was playing outside with her 
mother, and her mother went home to grab some water. The next 
thing she knew, when she came out a few minutes later, her 
daughter was gone. And 7 months later after our workers 
traveled 30 cities and counties, sent out 50,000 fliers and 
received over 100 hotline calls, she was able to be reunited 
with her family. This is a happy, joyful picture in which she's 
taking down her own missing child, missing person posters and 
is in her father's arm. But still many more are searching and 
waiting.
    Unfortunately, the act of petitioning and organizing on 
behalf of the children is not considered a legal act in China. 
Rather than helping parents finding their sons and daughters, 
the government has been cracking down on these volunteers, and 
detaining or imprisoning them. This photo is the amount of the 
volunteers and the parents of missing children who are detained 
for the activity to find their children.
    So, today we have four specific requests for China; that 
China would focus on helping us find these 2,175 children, and 
China would focus on regions known for trafficking problem, 
especially in Fujian province. And that province has such a 
common trafficking problem buying child brides, so when the 
parents go over there to try to find their kids, nobody thinks 
twice about it or sees it as not something they should be 
doing. And the three brides we were able to reunite, each of 
them had multiple siblings. A quarter of the siblings there a 
result of child trafficking. That's number three.
    China should spend some money and resources any way that is 
effective but respective and encouraging towards parents who 
are searching for their children, rather than detain them, or 
harass them, or punish them. We ask that China would create a 
system similar to the U.S. Amber Alert system that immediately 
begins searching and rescuing at the moment that the child 
disappears.
    The father who we saw in the clips of the video, his 
daughter was missing in 2005, but the case was not established 
until 2008. That's too late. Thank you for your time.
    [The prepared statement of Ms. Chai follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Ms. Chai Ling, thank you very much.
    Ms. Chai. Thank you.
    Mr. Smith. Ms. Rivard.

 STATEMENT OF MS. NANCY RIVARD, PRESIDENT AND FOUNDER, AIRLINE 
                   AMBASSADORS INTERNATIONAL

    Ms. Rivard. It's an honor to address the U.S. Congress 
Committee on Foreign Affairs Subcommittee on Africa, Global 
Health, and Human Rights.
    I was so inspired by the video from All Girls Allowed, it 
made me think to say that we right now have a 30-second spot on 
American Airlines, and I would love your assistance in re-
shooting that spot as a tool for public awareness around this 
issue.
    Ms. Chai. Praise God, thank you.
    Ms. Rivard. I founded Airline Ambassadors in 1996 for 
airline personnel using their travel privileges to help 
children. We are the only humanitarian organization of the 
overall airline industry, and are leading the effort to raise 
awareness on the issue of human trafficking and modern day 
slavery.
    In 2009, on a humanitarian mission in Cambodia, we rescued 
an abandoned little girl in the slums outside Angor Wat. It was 
written up in an American Way magazine article of September 
2010, which would request be included in the record. We also 
learned there were thousands more girls just like here, who 
were bought out of the provinces and sold into the brothels of 
Bangkok and Phnom Penh. We realized that many of these children 
were being transported on commercial airlines. That's when I 
knew Airline Ambassadors had to get involved.
    On our next humanitarian mission to the Dominican Republic, 
our team reviewed the behavioral indicators of trafficking 
victims and their predators, and stayed alert as we boarded our 
flights to the United States. Astonishingly, on every airline, 
U.S. Air, Delta, and Jetblue we correctly identified a 
trafficking situation. The flight attendants on each airline 
did not know what to look for or how to respond, but were 
anxious to help after we told them what they should do. We 
realized how vital a role that airline personnel could play as 
front line of defense for international security.
    Congressman Chris Smith and Joe Pitts supported us by 
hosting congressional briefings to airline partners and 
embassies to encourage airlines and airports to raise awareness 
about this issue, and outreach to the travel industry. American 
Airlines issued a bulletin to flight attendants as a direct 
response to these briefings, and several embassies offered to 
connect us with their domestic airlines and airports. Funding 
is needed for proper follow-up for training and materials.
    I, again, would like to acknowledge Delta Airlines as the 
first U.S. airline to sign the code of conduct for the 
Protection of Children from Sexual Exploitation in Travel, and 
acknowledge other companies in the travel sector, such as 
Carlson, Hilton Worldwide, and Global Exchange Tours. The code 
is an industry-driven responsible tourism initiative, and an 
important way to demonstrate corporate social responsibility on 
this issue.
    Airline Ambassadors has developing a training specific for 
airline, airport, and hotel employees to identify the visible 
signs of trafficking, and protocols to respond. We provided our 
first training just before the Super Bowl at DFW, and we had an 
overwhelming response. It was attended by flight crews from 
four airlines, TSA, and airport personnel. We distributed 
10,000 wallet cards with red flag indicators to participants, 
and also on flights leaving DFW.
    It is estimated that 800,000 persons are trafficked across 
international borders every year. Every week, we receive 
reports from flight attendants who are seeing cases of 
trafficking. Just yesterday I learned about an observant 
passenger who alerted a Swiss Air crew from Zurich to Chicago 
of a suspicious situation with 30 young girls. The flight 
returned to the gate and international security handled the 
problem. The Swiss Air Crew said they see those situations all 
the time, but they don't know what kind of action to take.
    We ask for your support in engaging the travel industry to 
implement training programs specifically addressing human 
trafficking. This committee is invited to review our training 
and help promote it as a best practice for airlines, airports, 
and hotel staff around the world. We'd love to partner with 
Carlson on the hotel aspect for sure. The airline industry 
already provides recurrent emergency training for crews, so 
incorporating this subject would not be too expensive. And, 
again, I said we could adapt the in-flight video that we now 
have on American Airlines.
    On May 31st, 2011, just a couple of weeks ago, the flight 
attendant unions of APFA and AFA joined us at the signing of 
landmark trafficking legislation by Governor McDonnell at 
Dulles Airport. That represents the support of 70,000 flight 
attendants and 22 airlines.
    We are also partnering with the First Lady of the Dominican 
Republic, Dr. Margarita Cedeno de Fernandez, to launch the 
first human trafficking Web portal during the United Nations 
General Assembly. I'm honored to extend a personal invitation 
to every member of the Foreign Relations Committee to join us 
at this historic event.
    As you are aware, human trafficking is a major human rights 
issue of our time. It is not just a cause, it's impacting lives 
every day. Just last week I met young trafficked boy in Haiti, 
who was so severely abused he didn't even know his own name, 12 
years old. I saw three young victims thrown into a dark, 
mosquito infested jail with no chairs and a filthy cement 
floor, because there's nowhere else to put them. The Bureau for 
Protection of Minors in Haiti has identified 13,000 trafficked 
victims just in the last year in Haiti. We are building safe 
houses to protect these children and give them the care they 
need. Please support our efforts to raise awareness in the 
travel industry and protect children in the United States and 
the world. Thank you.
    [The prepared statement of Ms. Rivard follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Ms. Rivard, thank you very much.
    Mr. Kowalcyzk.

  STATEMENT OF MR. PHILIP KOWALCYZK, PRESIDENT, THE BODY SHOP

    Mr. Kowalcyzk. Thank you, Chairman Smith and the members of 
the committee and subcommittee.
    At The Body Shop, we believe that business should be both 
profitable and a force for good. The principle way that we do 
this by using our beauty boutiques as a platform to inform 
customers on social and environmental issues. In doing so, we 
invite them to join us and together campaign to create long-
term change. This approach was pioneered by our founder, Dame 
Anita Roddick, who created The Body Shop in the UK in 1976, and 
we've grown our brand from one boutique to over 2,600 in 65 
countries today.
    I imagine for many of you in this room, the fact that the 
numbers are in the millions of children who are trafficked 
every year and sexually exploited, in virtually every country 
across the world, is something that you've known for many 
years. At The Body Shop, it was only 5 years ago that we became 
aware of the extent of this underground issue. As a business 
that has 35 years campaigning for social and environmental 
change, it was a natural step for us to explore how we could 
contribute to providing a solution.
    We responded by creating a global partnership with ECPAT 
International, and together we launched the Stop Sex 
Trafficking of Children & Young People campaign in 2009. In the 
U.S. and Canada we have partnered with ECPAT, and the Somaly 
Mam Foundation to achieve specific and actionable goals.
    In the first instance, our goal has been to raise funds to 
bring immediate relief to help children and young people who 
have been impacted by sex trafficking. But, ultimately, we are 
working to inspire long-term change by raising awareness of 
this issue, and by facilitating the voice of the consumer to be 
heard by those with the decision-making powers.
    From the outset, our campaign strategy focused on the 
belief that abuse on this scale could be stopped if decision-
makers take action. Fundraising is important to support the 
immediate relief, but this is only a band aid. The real answer 
to create sustainable change lay in influencing decision-makers 
to change legislation.
    How do we do this? As an international retailer with stores 
in high-profile locations like shopping malls and street 
locations across the world, we have an incredible opportunity 
to reach millions of people from all walks of life using our 
boutiques to communicate and inspire action. We have the 
ability to create a platform that captures and mobilizes the 
voice of our consumers.
    Add to that equation another incredible asset, 50,000 
dedicated staff across the world who are trained to talk about 
the campaign with our customers, and with that we have the 
ingredients to deliver some groundbreaking change.
    When we can inspire customers to lend their voice to the 
signing of a campaign petition, we create a loud and united 
voice which, we believe decision-makers are responding to.
    Of course, the petition call to action has to be nationally 
relevant and very specific to changes that are needed across 
the globe. To deliver this, we and ECPAT International created 
specific calls of action relevant to country-specific issues.
    So, for example, in the United States, we are calling for 
the states to introduce ``safe harbor'' to protect and prevent 
any person under the age of 18 from being charged and 
prosecuted, or incarcerated for prostitution. In some states 
this exist, in most it does not.
    In Germany, we're calling for the government to strengthen 
the protection of victims during the investigation and legal 
proceedings. In South Korea, the call to action centers on 
training police and teachers to help prevent trafficking.
    While we know we have a long way to go to fulfill the 
potential of our campaign we have already had some successes 
which have created change to protect children and young people 
not just today, but in the future.
    Around the world, in less than 12 months, more than 6.2 
million people have come to The Body Shop and signed our 
petition in 50 countries around the world. This is the biggest 
petition in a proud 35-year history at The Body Shop.
    So far, we've presented the petitions to governments in 
nine countries, and have already helped to create legislative 
change. And, again, a few specific examples might help.
    In Malta, the government responded to our campaign by 
signing the Council of Europe Convention on the Protection of 
Children Against Sexual Exploitation and Child Abuse, a major 
international treaty which will greatly improve the protection 
and support for children.
    In Malaysia, the government responded to the petition by 
committing to ratify the Optional Protocol to the U.N. 
Convention of Child Rights on the sale of children, child 
prostitution, and child pornography.
    In the Netherlands, the Minister of Security and Justice 
responded by accepting personal responsibility to increase 
police protection and support the children affected.
    We've also helped change legislation in Switzerland and 
Norway, and have received assurances by the Ministers in South 
Africa and Portugal that our call to action will be delivered.
    We believe this is just a start. With 33 petitions to be 
presented to governments around the world in the coming months, 
we're confident that we can help create further change. We're 
also preparing for a presentation to both the European Union 
and the United Nations Human Rights Council in the hope that we 
can influence even greater action.
    We're proud of the achievements in gathering the support of 
more than 6 million people worldwide on this issue of child sex 
trafficking; of raising more than $3 million to support relief 
and advocacy efforts. We are very aware that there is a long 
way to go, but we're committed to this issue and confident that 
we can continue to work with our customers and other affiliates 
in order to be able to make a difference.
    I pay tribute to our customers and my colleagues around the 
world who demonstrated beyond any doubt that as a business, if 
you empower people to become involved, they will gladly respond 
and speak out to help create change.
    Chairman Smith, I'm grateful to have been invited here 
today to share the details of The Body Shop commitment to 
tackling child sex trafficking, and hope that what the 
subcommittee has heard is helpful in supporting the work of 
your subcommittee, and inspiring the private sector to play a 
role in eliminating the commercial sexual exploitation of 
children and young people. Thank you for listening.
    [The prepared statement of Mr. Kowalcyzk follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                              ----------                              

    Mr. Smith. Mr. Kowalcyzk, thank you very much for you 
testimony, and for the leadership of The Body Shop.
    I'd like to now recognize Mr. Bales.

 STATEMENT OF MR. KEVIN BALES, CO-FOUNDER AND PRESIDENT, FREE 
                           THE SLAVES

    Mr. Bales. Thank you. Thank you for the opportunity to 
speak today.
    I'll concentrate most of my remarks on the situation in 
eastern Congo, but I also have to say it was great fun and 
enormously exciting to work with the Norwegian Body Shop staff 
and help them with training not long ago with our sister 
organization, the Norwegian Anti-Slavery Society.
    Since the beginning of human history, conflict and slavery 
have marched together. Since the end of the Cold War, we have 
since this time and again in Sierra Leone, the former 
Yugoslavia, Burma, Uganda, Sudan, and in the Congo. Civil war 
destroys the rule of law. Without the protection of the law, 
the average citizen is prey to violent men and made more 
vulnerable by their predations.
    Without the rule of law, anything and anyone can be stolen. 
The natural world is decimated and nation's resources are 
swallowed up by criminals, and the people become disposable 
tools in what is simply armed robbery on a massive scale.
    All this is true of the eastern Congo, but there is an 
additional truth that we must face, and that is our own 
responsibility in this crime. We are not guilty of violence, or 
culpable for this slavery, but we are responsible for 
generating a market for the minerals that feed the power of the 
armed gangs.
    We have real need for these minerals, and the supply chain 
is complex. But we also have a duty to unravel this complexity, 
and to confront the ongoing rape, slavery, and murder of the 
people of eastern Congo.
    I have been with the people in eastern Congo. I have shared 
their meals, I have joined them in their churches. They are 
reduced to bare subsistence. Before the armed thugs, they are 
lambs to the slaughter. And the weapons that enslave and murder 
them are paid for with the profits from the minerals we buy.
    My written testimony contains precise descriptions of the 
different types of slavery found in eastern Congo, and detailed 
suggestions for how we might all work together to end that 
brutality. Two of those suggestions are for provisions that can 
be added to the Trafficking Victims Protection Act, which have 
been developed by the Alliance to End Slavery and Trafficking, 
a coalition of hands-on expert anti-slavery and anti-
trafficking organizations, of which are a proud member.
    One would require greater business supply chain 
transparency. The broad support by businesses for a similar new 
law in California makes a strong argument to extend that 
transparency to all American citizens.
    The second would close loopholes in the Smoot-Hawley rules. 
Those loopholes are one of the reasons for the very small 
number of enforcement actions.
    Additionally, I want to point to the need to build and 
enhance our existing public-private partnerships. In order to 
deprive the armed gangs of their funds, this is necessary, 
because the existing supply chain remediation focused on the 
minerals after they leave the Congo is not enough.
    This requires working with the people there to produce 
slave-free and conflict-free minerals. In this way, our 
concerns and desires for clean computers, for supply chain 
transparency has a meeting point with the desire of local 
people for freedom, livelihoods, and security.
    This is not a problem we can solve alone. These local 
communities are out best and true allies. Our goal should be 
communities that can articulate their own goals for their 
lives, and feel some sense of control over their destinies. We 
know this is possible.
    In India, we and our partners work with whole villages who 
are enslaved in rock quarries. With support through liberation, 
training in citizenship and rights, protection committees, and 
the assignment of legal mining leases, these communities are 
transformed.
    Such methods are crucial for eastern Congo, because 
liberation brings development. When freed slaves work for 
themselves and their own family they unleash an enormous 
potential, both for production and for the consumption that 
drives the economy. This freedom dividend causes local 
economies to spiral upward and helps to stabilize communities.
    Also, the United States needs to be closely involved in 
making sure that peacekeepers are adequately resourced, and 
that peacekeeping is focused on those locations that are 
economically important. Without security, there can be no 
transparency, no slave-free and conflict-free minerals, nor can 
there be protection for the natural world, for the pristine 
cloud forests, and the rare mountain gorillas which are such a 
powerful economic engine across the border in Rwanda. Remember 
that the per capita income in the Congo is $280 per year, while 
the average mountain gorilla generates around $28,000 a year 
for their local economy.
    When I was in the eastern Congo, I was astounded that most 
of the people I met were not despairing. They were doing their 
best to rebuild their lives and their families. We don't have 
the right to despair if they don't. Instead, we should learn 
from them and restore our own belief in them, and their home. 
eastern Congo is an amazing resource for the whole planet in 
both natural beauty and needed minerals. Let's join the people 
there in visualizing their country without destruction, without 
slavery, where communities can support themselves sustainably, 
and we are excited to go as tourists. Then let's work with them 
to achieve that vision.
    Finally, it's rare that I get to speak directly to people 
who hold sufficient power to bring slavery to an end, so I must 
tell you that your's can be a legacy of freedom, not just for 
the Congo, but for the whole world.
    There are 27 million slaves in the world today, a very 
large number, but the smallest fraction of the global 
population to ever be in slavery. These slaves generate 
something like $40 billion a year for their masters. But, 
again, that is the smallest proportion of the global economy 
ever represented by slave labor.
    Slavery is illegal in every country, and denounced by every 
faith tradition. Slavery now lurks in the dark and hidden 
criminal edges of our global society. In fact, it is standing 
on the edge of its own extinction. With a strong concerted 
push, we can end slavery.
    For years in our work of liberation and rehabilitation of 
slaves around the world, we have been carefully calculating the 
cost of freedom and of building new lives. The cost of bringing 
slavery to an end would be, to our best estimate, around $12 
billion over a period of some 25 years, a sum to be raised from 
all governments and all people of goodwill.
    The result would do to slavery what a similar concerted 
effort has done to Smallpox. Where once there were millions of 
cases each year, there are now a handful, and those are quickly 
dealt with.
    We know how to end slavery. Thousands of freed slaves 
around the world are proof of that. And while we still lack the 
resources and awareness to make that happen, perhaps our 
greatest need is leadership. So, I finish with a question for 
the committee, will you be the leaders that rid not just the 
enslaved mineworkers of the Congo of slavery, but the world of 
slavery? Thank you so much.
    [The prepared statement of Mr. Bales follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Mr. Bales, thank you very much for your 
leadership, and your organization which is doing pioneering 
work. Thank you.
    Mr. Abramowitz.

   STATEMENT OF MR. DAVID ABRAMOWITZ, DIRECTOR OF POLICY AND 
             GOVERNMENT RELATIONS, HUMANITY UNITED

    Mr. Abramowitz. Thank you, Mr. Chairman and Ranking Member 
Payne, and other members of the committee for holding this 
hearing on one of the most pressing human rights challenges of 
our time, the widespread occurrence of modern day slavery and 
human trafficking. I ask that my full written statement be made 
part of the record.
    Mr. Smith. Without objection; yours as well as other 
members of the panel.
    Mr. Abramowitz. And I'll just summarize my remarks in some 
oral remarks since I'm the last of a very distinguished panel 
who have really plowed the ground before me.
    Thanks for your generous introduction, Mr. Smith, but as we 
all know, it's your leadership that all of us up here honor, 
and the way which you've pursued this issue for more than 10 
years through the original TVPA, and before, bringing this 
issue to light. And we really want to thank you for your 
commitment, including the commitment of you and your staff and 
this Congress.
    Mr. Chairman, other witnesses have described the scale and 
scope of modern day slavery, the third largest and fastest 
growing transnational crime. Regrettably, this is not a far 
away problem that affect distant lands. It remains a shock to 
most Americans, but thousands of adults are trafficked into 
forced labor or sexual slavery right here in the United States, 
and estimates of U.S. youth tracked into commercial sex are as 
high as 100,000.
    Mr. Chairman, at Humanity United we believe there are 
solutions to this heinous abuse, but ending trafficking and 
slavery requires a unity of effort between civil society, the 
private sector, and governments around the world. And I was 
very pleased when I saw the composition of this panel bringing 
together the private sector, as well as those of us in civil 
society who have been working on this matter. And I commend the 
committee for putting that together.
    For our part, Humanity United is supporting the Alliance to 
End Slavery and Trafficking, or ATEST that Mr. Bales just 
referred to, a coalition of 12 members of civil society that I 
described in my written testimony.
    ATEST has been working on the Trafficking Victims 
Protection Act, its implementation, and also on the 
reauthorization bill, and the recommendations I will outline 
below are drawn from its proposal.
    As I just indicated, Mr. Chairman, there's no need to 
remind you of the leadership role this committee has taken with 
respect to fighting human trafficking. One of the strong points 
of this legislation has been it's bipartisan nature which has 
sustained the framework created by the TVPA over the last 
decade. I think it's of paramount importance that this strong 
bipartisan support from introduction to Presidential signature 
remain a key part of this effort.
    In my written testimony, Mr. Chairman, I have laid out a 
number of lessons we have learned over the past 10 years, and 
I'm happy to answer any questions you have on those. Let me 
focus on what we have learned about how the U.S. Government can 
best achieve change.
    The annual Trafficking in Persons Report can highlight 
forms of abuses and identify solutions. The TVPA's tier ranking 
system can name and shame, and spur governments to action. 
However, we have learned the report and rankings are not 
enough.
    The U.S. Government must conduct robust diplomacy both by 
the Trafficking in Persons office and the Department of State's 
regional bureaus, as well as creative action in the field where 
each Embassy has a critical role to play in catalyzing change.
    The U.S. Government also needs resources to leverage 
change. While at the end of the day this responsibility lies 
with a particular foreign government, U.S. assistance, 
judiciously employed, can be critical to go from willingness to 
actual action.
    As we consider these evolving developments, Mr. Chairman, 
there are a number of important reforms that should be 
considered as you move forward in the next 10 years of 
combating human trafficking.
    First, as was discussed on the earlier panel, and as you 
mentioned, Mr. Chairman, we need to address the issue of 
foreign labor recruiters and brokers, one of the leading 
drivers of the phenomenon of slavery and trafficking today. 
Recent testimony you heard before the Helsinki Commission just 
a few weeks ago details these practices, and I would ask the 
statement by Ms. Neha Misra on May 23rd, 2011 be made part of 
the record.
    Mr. Smith. Without objection, so ordered.
    Mr. Abramowitz. In this regard, Mr. Chairman, we know 
recruiters deceive young girls with promises of legitimate 
employment only to bind them into sexual exploitation. 
Exploitation by labor recruiters is happening right here in the 
United States, in our fields, in our factories, and on our 
streets. In my written testimony, I cite a recent case where 
400 Thai workers were lured to the United States and put into 
modern day slavery.
    Mr. Chairman, I believe the abuses of labor recruiters and 
brokers can be ended, and that effort can start right here in 
the United States, and can have a huge demonstration effect for 
other countries around the world.
    As you mentioned, this House has already adopted such an 
approach in 2007, but that provision did not become part of the 
final legislation. ATEST has reviewed this House passed 
provision, and I have described the revised framework in my 
written testimony. As you mentioned, elimination of fees that 
end up being abusive and lead to debt bondage, disclosure 
before the worker leaves his or her country, just as the 
government is requiring the contractors to do, as Ambassador 
CdeBaca indicated. And enforcement through a registration 
system paid by the foreign labor recruiters themselves.
    Second, Mr. Chairman, I would point to the need to maintain 
funding for international anti-trafficking programs, and to 
authorize contingency funding for emergency situation and 
unexpected opportunities.
    As I discussed earlier, we are only going to make further 
progress if smart diplomacy can be leveraged with targeted U.S. 
initiatives. I understand that the cuts in the FY 2011 budget 
has led to a 23 percent decrease in the TIP office's programs 
this year, a reduction that is as deplorable as it is unwise. I 
urge that the committee reauthorize assistance for 
international anti-trafficking programs at no less than the 
amounts currently authorized in the TVPA.
    The United States also needs to be able to rapidly deploy 
experts and staff, and this was discussed when you were talking 
to Ambassador CdeBaca. For example, I understand that after the 
fall of the Ben Ali regime in Tunisia during the Arab spring, 
officials in the Tunisian Government communicated that they now 
could finally start talking about trafficking problems that the 
regime has refused to admit, and expressed a willingness to 
enter into a dialogue with the United States on these issues. 
The United States must have the ability to move quickly in 
these kinds of opportunities.
    The upcoming independence of South Sudan may be another 
such opportunity to help create a new framework for a new 
country recognizing that the challenges that we see at this 
very moment as conflict is breaking out between North and South 
may delay that, but there will be an opportunity to help them 
get this issue right which has caused so much pain to their own 
population, and it's something that we should be ready for.
    Finally, as you mentioned, efforts to combat trafficking 
must be part of the response to natural disasters or manmade 
emergencies, and we--I talked about the Haiti example, as you 
referred to with Ambassador CdeBaca.
    Third, Mr. Chairman, as Mr. Bales mentioned, and as I 
described at length in my written testimony, corporations can 
join the fight to end slavery in our time. We see examples of 
this at our table, and there are other ways that corporations 
can move forward to really try to help all of us end this 
abuse, and I would just direct you to the testimony and the 
reference to the California law that Mr. Bales mentioned.
    Fourth, Mr. Chairman, we need to continue the integrity and 
strength of the annual Trafficking in Persons Report, which 
will be issued by the Department of State later this month. I 
spoke of the report and its merits earlier, and happy to answer 
your questions on some of its success.
    I am most concerned, Mr. Chairman, that there will be 
legislative efforts to undermine the impact of the report. 
Making the report a biannual process or making the report 
appear earlier in the calendar year would have the effect of 
undermining the impact that the report has today for reasons I 
discuss in my written testimony. And I think we should--the 
first rule here should be let's do no harm. And I'd be happy to 
talk to you, your staff, and to members of the community as 
proposals might come up.
    We must also carefully review the effects on the report of 
the ``automatic downgrade'' provision that was added in 2008, 
by which countries that have been on the Tier 2 Watch List 
automatically face sanctions if they remain on that list for 
more than 2 years.
    The implementation of this provision has both produced 
change, but has also upped the pressure and debates within the 
State Department, and we need to see how this provision is 
implemented in the coming report.
    Finally, Mr. Chairman, I have some additional suggestions 
regarding how U.S. law could be improved to make anti-
trafficking policies even more effective, including enhancing 
the State Department's response in the field, authorizing 
compacts with willing countries, insuring the Department of 
Labor continues the publications of its reports on goods made 
with forced and child labor. These are all contained in my 
written testimony. I hope you and your staff will have a chance 
to review them.
    Mr. Chairman, Ranking Member Payne, these are a number of 
measures that should be considered by Congress in reauthorizing 
the TVPA, and we at ATEST would be happy to meet with you and 
your staff to have further discussions about these matters.
    If this committee continues to act in a bipartisan manner 
in accordance with its traditional approach to this issue, you 
can ensure an even greater impact, save more victims and help 
their journey to move beyond their terrible experience and 
become survivors.
    Mr. Chairman, I commend you for recognizing that every part 
of society--government, private business, civil society, and as 
was discussed, every human being who believes in the dignity of 
each of us--has a role in eliminating this heinous abuse.
    We stand ready to work with you, and I want to thank you 
for inviting me to present this testimony.
    [The prepared statement of Mr. Abramowitz follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Mr. Abramowitz, thank you so much for your 
testimony. I did read your testimony. It's filled with very 
useful recommendations, as usual, so I do on behalf of the 
committee thank you for that, as well.
    I'd like to yield to my good friend and colleague, Mr. 
Payne, our ranking member of the subcommittee.
    Mr. Payne. Thank you very much, Mr. Chairman. And because 
of the longstanding conflict, I was unable to get here earlier, 
I will just ask to have my opening statement included in the 
record.
    Mr. Smith. Without objection.
    [The prepared statement of Mr. Payne follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Payne. And I'll yield to you for your questioning, and 
then follow as is--okay.
    Mr. Smith. Thank you, Mr. Payne.
    Let me just ask a couple of questions. And, again, all of 
your testimonies are filled, replete with very useful 
suggestions.
    And, Mr. Bales, you might have noticed in my questioning of 
Ambassador Luis CdeBaca that I asked him about the letters that 
have been sent by you, and a consortium of other--and several 
other NGOs. Are you satisfied with the response that was sent 
in March by the Department?
    Mr. Bales. Yes, I think so. And, also, I think to answer 
the question you asked of Ambassador CdeBaca, as I understand 
it, the regulations on DRC exports are expected to be released 
by the SEC in early August.
    Mr. Smith. Okay, thank you.
    Ms. Cundy, you spoke about the legal department being 
reluctant, at first. What were their--in order to share that 
false concern--although legal departments, they're paid to keep 
corporations out of trouble--what were their concerns, and can 
you share that so that we could amplify that and make sure that 
other legal departments don't repeat those concerns?
    Ms. Cundy. Yes, Congressman, up to a point. I'm not exactly 
sure all of the issues that they might have been looking at, 
but I do know that in the end, the code of conduct is not 
binding. Our legal department, I think, might have felt that 
should something occur after we've signed the code, what does 
that mean for us?
    In the end, they felt that since we are aware of the 
problem, it had been brought to our attention that, frankly, 
for us not to sign the code might actually put us at more 
exposure.
    Mr. Smith. So, it wasn't a concern about a potentially 
false allegation by an employee resulting in a defamation suit 
or some other----
    Ms. Cundy. No, not that I'm aware of. I don't think that 
was----
    Mr. Smith. It had to do with the code, itself. Okay.
    If I could ask you, as well, when an employee recognizes a 
potential act of human trafficking, to whom does he or she 
report, and is law enforcement immediately notified? How is 
that actually done?
    Ms. Cundy. Yes. Yes, they are told to report to the 
management of the hotel.
    Mr. Smith. Okay.
    Ms. Cundy. The management of the hotel then contacts law 
enforcement immediately. And, of course, how law enforcement, 
depending on where the location is, decides to follow-up is 
something that's within their purview.
    Mr. Smith. And, Ms. Rivard, when a flight attendant 
recognizes a potential trafficking situation, you had mentioned 
previously, I heard you speak to, during long flights in 
particular, very often a flight attendant will notice a 
disconnect, if you will, between a man and perhaps some other 
people who are traveling with him, mostly women and children, 
and that opportunities present themselves as they go to the 
ladies' room. To whom do they report when they have a suspicion 
of a trafficking in progress?
    Ms. Rivard. Yes. This happened last week, my girlfriend who 
was going to Costa Rica, and there was a 50-year-old man with a 
9-year-old Dominican girl. And she noticed that the man 
wouldn't let the little girl talk to her at all. She brought 
her cheesecake, wouldn't let--tried to go in the bathroom with 
the little girl. And when she stopped him, saying it's not 
appropriate, he kept his foot in the door and said, ``Woman, 
get out, it's none of your business.''
    She on her own told the pilots who radioed ahead to airline 
dispatch to have the authorities at customs meet that case. And 
sure enough, it was a trafficking situation. So their procedure 
is, basically, just to tell the pilots, and the pilots notify 
SOC, security operations command, at headquarters.
    Mr. Smith. I had raised your best practices, and actually 
handed out your brochure to OSCE participants at the last 
Parliamentary Assembly, and at least two of the representatives 
said that their national airline, it was the Dutch and the 
Swedes, were very, very interested. Has there been any fruit 
from your work with other airlines adopting that best practice?
    Ms. Rivard. Not so far. I mean, we'd certainly be very 
interested, and we're pursuing Delta right now. We'd love to 
support them in training----
    Mr. Smith. And Delta would bring Aeroflot in, right? Is 
that correct?
    Ms. Rivard. They could. I'm not exactly who is part of 
their alliance. But I have not had luck so far. Many of the 
airlines are nervous about associating their brand with this 
issue, afraid maybe that the flight attendants would be too 
vigilant and they would get a lawsuit. Although, we're pitching 
this to the airlines that this is an issue of child protection. 
And that like Carlson found out, this is ultimately good for 
their brand.
    I would like your support in helping to convince more 
airlines of this. And I need your support and connections to 
airlines that are interested in the training, because we have 
developed----
    Mr. Smith. Do you think a White House Summit or something 
along those lines would be helpful?
    Ms. Rivard. That would be fantastic, yes.
    Mr. Smith. I think the subcommittee could pursue that idea, 
and it would include, obviously, the great work that Ms. Cundy 
has done with her group.
    MS. Cundy. That would be greatly appreciated.
    Mr. Smith. We'll pursue that, and hopefully they'll be open 
to it.
    Let me ask Mr. Abramowitz if I could, you pointed out that 
David Arkless' research suggests that ``worldwide economic 
downturn has led to a surge in human trafficking worldwide, as 
those desperate to sustain themselves have become more 
vulnerable to traffickers due to economic distress.''
    The correlation between economic downturns, generally, and 
this very, very severe one that we've experienced throughout 
the world, what are you seeing, is it more labor trafficking, 
sex trafficking, both?
    In your testimony, you also talked about the unified 
approach rather than this dichotomy, false as it has been over 
the years. If you could speak to that, as well.
    Mr. Abramowitz. Thank you, Mr. Chairman.
    I think that you have to look at it from both sides. You 
have populations who may be under stress because of the change 
in economic circumstances that they're under. There may be a 
factory that is closed and, therefore, they're willing to take 
more risks to try to move in order to seek some sort of better 
economic opportunity. Therefore, it comes from the sort of the 
bottom end, as well as the top end because as there is 
shrinking profits, there is a need for those, whether they're 
making bricks in India or elsewhere in terms of the 
multinational trade. They're looking to reduce the cost that 
they have, so there's both a push and a pull.
    With respect to the issue of whether we've seen more into 
the sexual exploitation or labor exploitation, I don't think we 
really have the data to really give a conclusive answer. 
Obviously, again, the presumption would be that there would be 
increased vulnerability because there would be more women who 
would be more willing to take risks, or others who would be 
more willing to take risks and, therefore, would be more 
vulnerable to exploitation.
    I think in terms of the false dichotomy issue, clearly 
there is no doubt that there is recruitment specifically into 
sexual slavery. I think that the point is, is that a lot of the 
different activities that we see that are related specifically 
to labor recruiting, for example, on the economic side often 
ends up with also sexual exploitation involved. So, an 
individual leaves Nepal to go to India because perhaps sexual 
violence or other reasons have driven them to take that risk. 
They think they're going into a domestic situation. Maybe they 
end up in a domestic situation as they thought, but then 
they're exploited there not only for their labor, but also they 
fall into the trap with sexual exploitation, so you see both 
phenomena. Thank you.
    Mr. Smith. If I could, to you again, you talked about 
elimination of fees, disclosure, and enforcement. You reminded 
us that the `07 legislation had a registration and enforcement 
system that penalizes recruiters and complicit employers that 
do not follow the requirements in the system.
    Could you elaborate on how you think that might help end 
this labor trafficking problem that is only escalating? And if 
you could, I mentioned earlier about the Department of Defense, 
and that when we held those two hearings, I was deeply 
disappointed in the Pentagon's responses. They told us now 
we're going to rectify. Do you see any evidence, perhaps, that 
they've really taken to heart that we should not be complicit 
in Iraq or anywhere else with these labor traffickers who 
impose huge sums on people who think they're getting a good 
deal, and they get an awful deal?
    Mr. Abramowitz. Thank you, Mr. Chairman.
    With respect to the first question, I think the notion is, 
is that we need to set certain standards for foreign labor 
recruiters, including as was discussed, the elimination of 
fees. I will say that the administration has taken an important 
step by really restricting the amount of fees in certain 
programs involving legal workers. There were recent regulations 
that the Department of Homeland Security has put forward in 
draft that did really try to restrict fees. But, of course, 
that's only on one part of the program.
    Then the second part is, as was discussed, the worker 
really needs to understand what it is that they're moving to. 
So often they don't understand that there will be this fee, 
that fee, this cost for training, et cetera, where they're 
going to be. And, of course, we've seen cases, including the 
U.S. Government cases, where laborers thought they were going 
to the Gulf but they end up in Baghdad. Clearly, that is a huge 
problem. Once they're there they're sort of stuck there. They 
may have gotten huge debts, so then it becomes a problem that 
exploitation occurs.
    With respect to enforcement, I think that you can take a 
spectrum of different approaches to this, but it seems that 
there needs to be some mechanism so that once a laborer 
recruiter, or broker has been registered with a government 
entity that there be some ability to pursue them if it turns 
out that they've misinformed the worker, or brought them into a 
situation where there could well be exploitation. So, I think 
there has to be some enforcement mechanism. Exactly what that 
looks like--there was, of course, one of the--in place of the 
2007 provision that we've been discussing, there was a fraud in 
foreign labor contracting provision that was put in, that has 
just now been starting to be pursued as a prosecutorial method.
    In terms of the Department of Defense, Mr. Chairman, it's 
very hard to evaluate it. I think that one of the reasons that 
the Office of Inspector General was brought into this was 
because it's--the contracting procedures of the government are 
complex enough that if you really are not pursuing and really 
doing the training that's necessary with respect to the 
contractors, themselves, then they're not really going to--and 
the employees who are working with the contractors, they're not 
going to know about these provisions.
    I think the Defense Department has its problems. The New 
Yorker story that you referred to indicated a wide range of 
different problems that, obviously, the Defense Department has 
more work to do.
    I think Secretary Gates did make some very important 
statements at the February meeting of the President's Inter-
Agency Task Force, and I think that's going to be something 
that Secretary Panetta is going to have to follow-up with.
    I think in the Defense Department, it's all about 
leadership from the top. There are a lot of things that happen 
there, that only happen because the civilian leadership is 
committed to it, so I think that's the avenue we need to 
pursue.
    Mr. Smith. Mr. Bales. Thank you.
    The corporate responsibility for those, particularly tech 
companies, but others who are benefitting from it, as we all 
are through many devices that would otherwise not be used or 
available, for the minerals from DR Congo.
    Could you name some names of some of the corporations that 
are doing well, and others that perhaps are doing very poorly, 
who are deriving their minerals from DR Congo?
    Mr. Bales. You know, I'm not sure that I can.
    Mr. Smith. Okay.
    Mr. Bales. And the reason why is that the names that would 
be familiar to us are those who are so close to us on that 
supply chain that they are--it's not that they're whitewashed 
of responsibility any more than we are as consumers, but they 
are a very long distance away from those smelters, processors, 
and component manufacturers, primarily in Southeast Asia which 
supply components, which are then very difficult to link back 
to DR Congo; not least because so much of the minerals are 
being smuggled out of the Congo, thus making Rwanda, which does 
not have coltan, for example, one of the largest coltan 
exporters in the world.
    Until we crack that duplicity at the Congolese, Rwandan, 
and Burundi borders, we will never be able to be absolutely 
certain, and we'll never be able to make a fair comment about 
which companies are doing well, and which aren't.
    Admittedly, there are a number of large electronic 
companies which are on record as wanting to do the right thing, 
but at the moment I worry that they don't have the mechanisms 
to achieve that, because those of us on both sides of this 
table aren't able to help them to do that.
    Mr. Abramowitz. Mr. Chairman, could I just add something?
    Mr. Smith. Yes.
    Mr. Abramowitz. I think that Mr. Bales really has pointed 
to a very significant problem. If you look at any number of 
good corporate citizens across the different spectrum of 
industries, they will tell you that they are making efforts, 
but it's very, very difficult.
    If you're buying apparel from China, you don't know whether 
that apparel has been made with Uzbek cotton or not, so knowing 
whether you're contributing in some way to the global supply 
chain is very, very challenging.
    There are members who are--companies that are members of 
various stakeholder, multi-stakeholder initiatives that bring 
together a wide range of industry groups and others who are 
really trying to make efforts in this area. A number of them 
work on both environmental and labor issues, but there has been 
a lot of focus on environmental issues, and not as much on 
labor issues. So, even where there's an effort to do things in 
partnership, there's really--there needs to be more effort made 
to really try to trace these supply chains, figure out better 
mechanisms so that they can actually know what's going on. And 
then, also, to press those multi-stakeholder initiatives who 
are saying that they want to look at labor issues, to really 
focus more of their auditing on those labor issues so that they 
can really try to do the best they can. Thank you, Mr. 
Chairman.
    Mr. Smith. Thank you. Mr. Bales, maybe you might want to 
answer this.
    As we know, no woman or girl in the mining zones is free to 
refuse sex to the armed men who control the mines. If there's a 
problem with a miner, for example, his wife or daughter could 
be forced to have sex with a military leader, and may be taken 
into sexual slavery.
    What attempts have been made to target this specific form 
of slavery? What would you suggest are the most helpful 
approaches? And, obviously, probably the largest deployment of 
U.N. peacekeepers, are in DR Congo. Is this sufficiently a part 
of their mandate to protect women against sexual violence, 
particularly in the mining area?
    Mr. Bales. This is, indeed, the largest deployment of U.N. 
peacekeepers in the world. And it's certainly part of the 
training and mandate of the peacekeeping forces. However, from 
my own experience, those peacekeeping forces are, for the most 
part, sort of in Fort Apache. They're in small communities, 
there are boundaries around it. It's very difficult given their 
defensive and protective role to carry out the kind of 
operations that would take them into places like the BCA mine 
that you just described which, as far as I know, has only 
rarely been even visited by a U.N. peacekeeper. When it has 
been, they have been out-manned and out-gunned by the rebel 
groups which control that mine.
    It points to the earlier situation that we were talking 
about, the dichotomy between sex and labor trafficking and 
slavery, because the fact is that the reality for any woman 
enslaved, whether it is in a mine, a field, a factory, or a 
brothel, there will be sexual assault. Sexual assault and rape 
are part of slavery for women. That's the way it's been for all 
of human history.
    And the situation there is one in which it operates where 
without any hope of redress to the rule of law, and the chaos 
of that situation, and the armed gangs which have basically 
carved up that part of the Kivus like mafias, meaning that it 
is very difficult to reach in.
    The best response that we have worked to so far in our own 
organization is to begin to organize local communities to begin 
to take on that vigilance for themselves, that they can never 
at this time rely upon from government and official sources.
    Mr. Smith. Thank you. Chai Ling, if you could, ``The act of 
petitioning an organizing on behalf,'' this is your statement, 
``of missing children,'' and that includes, obviously, those 
who have been trafficked, ``is not considered a legal activity 
in China. Rather than helping parents find their sons and 
daughters, the government has been cracking down on these 
volunteers and detaining or imprisoning them.''
    Could you expand on the Chinese Government's response? Is 
this something that the police have been involved in, the 
trafficking, perhaps, of these children? A member of IJM 
frequently testified here and said that there is an Achilles' 
heel in all of our trafficking efforts, it's often the police, 
particularly at the local level, who receive large sums of 
money, or they're able to exploit the victims, themselves.
    And I'm wondering why, if a parent is looking for his or 
her child who has been sold into slavery, that they get 
penalized, and they end up doing time--perhaps, if you could 
speak to that issue?
    Ms. Chai. Yes. The pictures in the PowerPoint presentation, 
those pictures are volunteers and victims' families who are 
looking for their children. They were detained when they went 
to Beijing to protest, and to petition the government to pay 
attention to this issue. They were looking for assistance. They 
were put in detention for over 20 hours.
    However, in Putian City, within the Fujian province, the 
reason why we believe why there's such a massive amount of 
child bride trafficking is because for over the past 30 years 
they have no police force or actions taking place, or 
government to prevent this kind of massive proliferation of 
child bride trafficking. We believe that might be a result of 
corruption between government officials and the family planning 
committee. Even family planning committee members, they 
themselves are purchasing child brides as well, together with 
the local police force, and the traffickers.
    Mr. Smith. In your opinion, is there a sufficient 
understanding and appreciation of what the one-child-per-couple 
policy has done among international policymakers, national and 
international, like the United Nations, the Human Rights 
Council, for example?
    I mean, it was 10 years ago that the U.S. Department of 
State's Human Rights Report said that there may be as many as 
100 million missing girls in China attributable to the one-
child-per-couple policy, or largely attributable to it. And 
that's 10 years ago, and the situation, apparently, has only 
gotten worse.
    Ms. Chai. Yes. I personally was shocked to learn how 
pervasive the one-child policy has been, and I used to believe 
that I was a human rights expert for China. That is until I 
came to your November 2009 hearing on China's one-child policy. 
My eyes were opened, and I realized this is the Tiananmen 
massacre taking place every single day, over 35,000 children 
are forcefully and coercely being eliminated. Many of them are 
girls. And now we see the clear impact of the one-child policy, 
because the one-child policy led to many other--400 million 
children killed in the past 30 years, and contributed to an 
imbalance of over 37 million single men that, as a result of 
the gendercide, and these 37 million additional single men in 
China right now have become the biggest driver of sex 
trafficking and crimes in China, and potentially around the 
world.
    Mr. Smith. Thank you.
    Ms. Chai. You're very welcome. And I do believe that this 
is such an urgent matter that all policymakers, leaders from 
President Obama and the White House, and the leaders of both 
parties from the U.S. Congress and the leaders from the United 
Nations really need to rise up to take immediate urgent action 
to call for the leaders of China to end the one-child policy.
    On January 1, President Hu Jintao visited the United 
States, and he was challenged by Speaker Boehner, and 
Chairwoman Ileana Ros-Lehtinen on the one-child policy, and he 
has stated that there's no forced abortion in China, and most 
recently with China's census study, China has clearly become 
old before it's getting rich. This whole one-child policy is 
creating massive social crimes, instability within China which 
will impact the world for sure. President Hu continues to 
maintain that the one-child policy will not end for a very long 
period. So, it is really upon us, the leaders of the world, to 
end this crime, try to end the child trafficking, and 
trafficking in China, period. And also end the source of all 
evil that is one-child policy right now.
    Mr. Smith. Thank you.
    Mr. Payne. Mr. Chairman?
    Mr. Smith. Yes.
    Mr. Payne. Thank you very much, certainly appreciate the 
testimony that I've reviewed, and the answers to questions 
raised by the chairman.
    The whole question in certain countries, and primarily I 
guess you, Ms. Rivard, there--I think airlines do know of 
where--I mean, the world knows where sex trafficking really 
goes on. Of course, it's difficult to just try to take one 
person at a time to apprehend or arrest. I mean, it's important 
because every child is important. But the problem is so big 
that I wonder if you feel, in your opinion, that these 
countries simply look the other way and do you, which we know 
they do, but do you see any improvement today as say opposed to 
20 years ago, or 15, 20, 10 years ago of destinations for sex 
exploitation where tourists go to the destinations? People know 
about Indonesia, for example. I understand that even in some of 
the Canary Islands, as quietly as it's kept, it's a big sex 
trafficking there.
    As a matter of fact, it was only in the last maybe 5 to 10 
years that the Dominican Republic started to advertise its 
beaches. I mean, it has as much beautiful beaches as any other 
of the Caribbean Islands, but it wasn't until recently that 
they built hotels on beaches, which meant that all of the 
trafficking, I mean, all of the tourism, by and large, say to 
the Dominican Republic was--much of it had to do with, you 
know, there was gambling, but also the prostitution.
    So, I guess my question is do you see any more, in your 
opinion, commitment on the part of governments, like in DR, or 
Indonesia, or places where it's just known, any more commitment 
on their part to try to combat it, or do they accept it as a 
necessary evil for their national economy?
    Ms. Rivard. Well, I do think that, for example, Mrs. 
Fernandez and the Dominican Republic cases, I laud her 
leadership as a Tier 2 country to try to take some action on 
human trafficking.
    I think the big critical issue here is public awareness. I 
used to work those flights, New York-Dominican Republic, and 
see those girls on those flights, and noticed that they were 
very provocatively dressed, had no idea really about the issue 
of human trafficking until the last year. Now they're calling 
Atlanta the new Thailand. They're bringing in little Thai girls 
and putting up in hotels in Atlanta, and men can go to visit--
have an exotic experience with a Thai girl and be home with 
their families for dinner that night.
    I know that I've become a lot more aware in the last 1\1/2\ 
years, 2 years, and I think it's necessary that we who are 
becoming alert to the severity and atrocity of this problem on 
the planet help spread public awareness. And we need to do that 
to the airlines, we need to do the countries, airports, and the 
general public.
    Mr. Payne. Thank you. I really commend you for the 
initiative that you took in creating this organization.
    The question of exploitation in minerals, you know, we 
passed the Conflict Minerals bill. It's part of the Frank-Dodd 
Wall Street Reform Act, Section 1502, which I'm proud to be a 
co-sponsor of, and its current implementation process. The SEC 
has proposed that public companies disclose if and how they are 
involved in the manufacture, mining, or final end use of 
conflict minerals.
    Do you think that this legislation will be strictly 
enforced? I guess Mr. Bales, or Mr. Abramowitz would--as you 
know, when we started many years ago on the Conflict Diamond 
resolution, people said Congressman Payne, you're not going to 
be able--how are you going to identify diamonds and so forth. 
So, many of us, Mr. Rangel, Mr. McDermott and others got 
involved in the conflict diamond law, which has had an impact, 
a good impact on the monitoring of--and elimination of some of 
the conflict diamonds. So, I wonder what do you think about the 
Conflict Minerals bill, and what do you think that--how could 
we work toward making it meaningful?
    Mr. Abramowitz. Well, we very much welcome that bill. And 
we're very supportive of it, and I think it helped to put some 
of those provisions--think through some of those provisions.
    I think it's a first step, and I'll point to two things. 
First is the, as I said in my testimony about the recent 
passage of the Transparency Law in California that covers all 
businesses over a certain size, requiring them to look and 
explain precisely how slave labor might be fitting into the 
products that they sell.
    Now, that doesn't have any penalties to it. It simply 
requires that they put something on their Web sites and in 
their materials that explain, how they're going to understand 
that and trace it, or to say at this moment that we're not 
doing anything about it; which, of course, then holds them up 
to real question about the fact whether they actually care 
about whether they're using slavery in their products.
    The point here is that that's moving large-scale retailers, 
especially, and we've been in a series of talks with Walmart 
about how best to address the tracing of their supply chains. 
And it's very much going to include conflict enslaved minerals 
from the Congo, as well.
    Mr. Bales. We've recommended that, along with the ATEST 
coalition, that that be considered to be brought into the TVPA 
Reauthorization. And we think that would be a great second 
step, one that allows the business community to act without any 
kind of rough stuff, as it were, on the legal side. But it gets 
people moving in the right direction.
    The second part is simply that I was just in Brazil, and I 
was actually looking at cassiterite mines run by artisanal 
miners, cassiterite being one of the key conflict enslaved 
minerals from the DRC. In Brazil in the Amazon, cassiterite 
mines run openly with cooperative well-paid miners who were 
very happy.
    It's about both looking on the right side and on the wrong 
side, and helping to better identify those minerals that we're 
happy to use, and making sure they get a premium to flow into 
the global supply chain. And as we begin to squeeze down and 
cutoff those that we're very concerned about, while not harming 
the people at the bottom of that artisanal scale even when it 
exists in a place like the Congo.
    Mr. Abramowitz. Very briefly, I don't have very much to add 
to what Mr. Bales said, but a couple of points.
    I think there is concern in the State Department about this 
provision, in particular because of the concerns that Mr. Bales 
was just referring to, that this could cause a number of 
companies to really try to figure out ways to stop purchasing 
from the DRC because they can't guarantee that the minerals 
that they're purchasing are not coming from these mines.
    There's a number of new ideas that are being put forward. 
The one that Mr. Bales just presented about the idea of 
identifying good mines that you could focus business activity 
is one of them. And, in fact, there's a dialogue that's going 
on between the NGO community that Free the Slaves is 
participating in to look at it, and one of the issues is the 
mapping that was also required by the--you try to actually map 
what's going on, because I think that there's a factual deficit 
that is making it more difficult.
    Finally, just one last point which is, I think that in many 
cases when you hear about reluctance by companies, there are a 
number of different reasons. And one is that people never know 
when they're going to do enough. When is it that they can say 
yes, these are the measures I've taken in place, and being 
aren't going to be asking me or criticizing me for doing more?
    And in that vain, we have a number of interesting 
developments, an agriculture bill that was passed a couple of 
years ago, create a consultative group that listed out 
different voluntary practices for how you could guarantee that 
you were not importing slave-made food into the United States. 
The Department of Labor is currently reviewing a set of 
standards for a variety of different sectors which once it's 
put out, it's been in the Department of Labor for a couple of 
years now, could give guidelines to companies to say hey, 
here's a touchstone for us. And I think it is incumbent on us 
to try to figure out what some of those realistic standards 
would be to help those companies really implement things that 
could have real impact.
    Mr. Chairman, I would like to say that ATEST does--I have a 
sheet of various different proposals from ATEST. That's just on 
a two-page sheet, and I would ask that that be included in the 
record, if you would.
    Mr. Smith. Without objection.
    Mr. Abramowitz. Thank you, Mr. Payne.
    Mr. Payne. Thank you. I do think that that's a good idea, 
that there could be an attempt to identify legitimate 
companies.
    I have had a number of meetings with President Kabila in 
the DRC, and the DRC itself does not benefit from these illegal 
operations. And, therefore, in my conversations with him, he 
would be looking for help in order to control these companies. 
Now, it's very difficult because of the vastness and the U.N.'s 
mandate may not cover illegal mining, so it's a pretty 
difficult situation to handle. But I do think that we should, 
perhaps, have more conversation, because they would know the 
legitimate companies, as opposed to the illegitimate ones.
    And even much of the--it's alleged that some of the mining 
that is done by Rwandans in the DRC is not officially mandated 
by the government. It's these former, as a matter of fact, as 
you know, the name of the group that went to Congo after the 
genocide and actually aligned themself in the old days with the 
Government of Congo to end the wars that occurred, into harm 
way and the ex-FAR who were there, but also some ethnic 
Rwandees that still are in that area. So, it is a complex area 
to sort out, but I do think that if we do concentrate we might 
be able to come up some better results.
    So I'm going to ask you to comment on--I'm not--that--don't 
know that you're totally familiar with Section 307 of the 
Tariff Act of 1930, which actually was passed, but it said that 
if there is a consumption demand by the U.S., if it's something 
that the businesses just got to have, that the restrictions 
don't apply, which is a big loophole.
    And I'm wondering if our Conflict Resolution Act will 
supersede this law, or whether we need to take another look at 
this, that things have changed since 1930. Whether we might 
look at trying to amend that consumption and demand section of 
the Tariff Act of 1930.
    Mr. Abramowitz. Well, Mr. Bales mentioned that in his 
testimony. Let me just say very briefly that that provision was 
originally designed to try to keep products out that were 
created with cheap labor that the U.S. couldn't compete with. 
So, it was actually a sort of infant industry's protection 
provision; therefore, there was this exception where it said if 
the companies in the United States needed that particular 
commodity, then it could be brought in without the exception.
    And, in fact, as Mr. Bales indicated, that is a proposal 
that's in the ATEST proposals. It actually was in a Customs 
Enforcement and Trade Reauthorization Bill that was passed out 
of the Finance Committee last Congress that Senator Grassley 
and the chairman of the committee worked together on, but it 
did not move forward at the end of the last Congress. So, there 
is discussion actually going on in the Senate whether there 
should be some changes to that. And I think--I don't know, Mr. 
Bales, do you want to add anything else?
    Mr. Payne. Thank you. Also, as we know, the ILO in Geneva 
tend to take on these questions and try to tackle some of these 
issues. Are they, in your opinion, funded enough? How could we 
cooperate more with the ILO, or how can we make it more 
effective since it's an organization that has been in existence 
for as long as the U.N. has. Is it strong enough? Does it need 
more beefing up? Do we participate in the ILO? You know, there 
are many international organizations we have not actively 
competed in, so how do we stand with the ILO, I mean, the 
International Labor Organization?
    Mr. Bales. We, in fact, particular well in the ILO, and are 
particularly well thought of there because of the long-term 
support of things like the IPECL Program, the International 
Program for the Elimination of Child Labor, which has been 
based on U.S. Government funding for many years now, since the 
Clinton administration.
    But when you ask what could it do better, or how could we 
help it to do better, one of the--there's actually a 
fundamental problem in the organization of the ILO, which 
arises from the fact that it was established in 1919. It was 
established to represent labor bodies, employer bodies, and 
governments. So, it has a tripartite system representing people 
who should absolutely be there, employers, labor unions, and 
governments, but which fails now to take on the fourth major 
player on the global stage, which are the non-governmental 
civil society organizations.
    And it's a curious fact that a great deal of the ILO 
publications that come from that tripartite system are actually 
written for them and produced by non-governmental 
organizations, which are not allowed to have an official role 
within the ILO.
    I've spoken with the ILO leadership about this, but it 
would be interesting if our Government were to say as its major 
funder we'd like you to consider including everyone at the 
table within the ILO.
    The other side of that is just there's a bang for buck 
question. The U.N. and ILO salary levels are pretty significant 
compared to say those of civil society, and you have to make 
some decisions about how those salary levels might balance up 
to what's being provided.
    I will point to a number of places where the ILO has done 
brilliant work. And I'm thinking especially of Brazil at the 
moment, and the fact that on the 20th of this month there will 
be a new extension of the Brazil Pact for businesses which is a 
way to remove slave labor from the product chain. That will be 
launched here in Washington for North America on the 20th of 
this month sponsored by the ILO. That's fantastic work. But, as 
you can see, it's like, for all of us, it's a mixed bag.
    Mr. Abramowitz. Mr. Payne, if I can just say briefly that I 
think you have to look at what instruments can be used for what 
purposes, at what time, in the best way. So, for example, just 
last week, the ILO's committee that is looking at a number of 
different problems on the labor side concluded a convention 
that for the first time will regulate domestic work.
    As you may know, there's been a tradition that individuals 
in the household, people who are providing childcare services, 
or household services are not considered workers because it's a 
private matter within the household. And this has led to a 
great deal of exploitation all around the world. And under the 
auspices of the ILO, they recently concluded this convention 
that will, for the first time, institute reforms that, if 
adopted, will make that a much more difficult abuse to carry 
out.
    Is this something that the United States will become a 
party to? It's unclear, there's a lot of state law issues that 
are involved. It's very complex when you're talking about some 
of these types of issues. But the United States was very 
involved in negotiating the convention, and had a lot of 
expertise which helped create a framework which will, perhaps, 
allow our laws to come into harmony and bring in best practices 
that we have, as well as others.
    There are also some programs that they do that only the ILO 
can do. There are some countries that are concerned about 
various bilateral programs in various areas, only they can 
bring a multilateral effort. But I think that--I agree with Mr. 
Bales, you have to sort of look at each individual program and 
figure out where it is that you can invest and get the biggest 
bang for your buck. Thanks.
    Mr. Payne. This is my last question or two in regard, 
again, and I keep going to ILO. I worked on the docks in Newark 
for 4 years when I was in college, so that's why I guess I slip 
up. However, and always have been concerned about maritime 
issues.
    One of the other inequities, of course, dealing with ILO 
and what they try to deal with, and it's something that has 
gone on for decades, and decades, and that's the so-called 
flags of convenience.
    As you know, there are three or four countries that certify 
their ships are seaworthy. Once again, an exploitation of 
workers. I think the shipping industry is probably one of the 
biggest exploitation of workers, whether it's cruise ships, 
whether it's companies, import/export. And the flags of 
convenience, of course, allow countries like Liberia, Panama, 
America, Carolinas or some countries that will certify that a 
ship is seaworthy and, therefore, is covered under the flags of 
convenience. And there was a great--I served on a World Refugee 
and Rehabilitation Committee in Geneva from `69 to `81, and 
during that time a ship actually broke in half because it was 
sunk because it was not seaworthy, but it was approved under 
flags of convenience, approved in one of these countries that 
actually certifies that this ship is seaworthy, and that the 
conditions are so forth. And that's something no one really 
wants to deal with. It's something I think we should certainly 
still take a look at it.
    Interestingly enough, these countries' companies are run by 
former U.S. naval officers. It's been that way the last 50 
years. It's really a sham which nobody deals with. So, I just 
raise that. I mean, that's a request because of serving not in 
part of it, but I see this, too, as being a part of 
exploitation of labor that countries are looking the other way 
and not dealing with the inhumane conditions of workers.
    Matter of fact, that goes way back to the Titanic, you 
know, when they looked at bodies to recover after the Titanic 
situation and crash. They would actually look at the 
fingernails of people to see if there was oil or grease under 
it, or their dress, when they decided which bodies to recover. 
Once again, the workers were just left, and we took the wealthy 
people, the passengers and so forth. So, we've had for many, 
many decades in that industry inequities. Once again, abuse, 
taking advantage of workers who are weak.
    Just have one last question. Ms. Cundy, in regard to the--
and I really commend your company and what you do. There is no 
question that probably some of the most--we know that women are 
abused throughout the world, and in the U.S. they still only 
make I think it's up to 72 cents on a dollar compared to men. 
When I came to Congress it was only 59 cents, so moving up, a 
little too slow, should be equal pay for sexes. But the 
industry certainly as we could just see here right in New York, 
we don't have to go to Indonesia, you know, to see the 
inequities, or the pressure that domestics, as we could see 
California, the former Governor there, and with the problem at 
the hotel in New York with the former president of the World 
Bank. So, it's probably not a secret in the industry that the 
people who work in cleaning, the maids and so forth, probably 
are subjected to this--if it happens on Fifth Avenue, you can 
imagine how it happens around the world.
    Is there--do you think that there could be an increased 
focus on even education so that these poor vulnerable women are 
protected, many of them immigrant people in countries, people 
that fear for their jobs? They many times are accused by the 
management if a customer approaches and abuses them, and 
they're afraid to report it because many times then they become 
the victim, and may be terminated from employment.
    Is there anything that you all are doing, maybe even 
starting here in the U.S., in addition to what you've been 
doing traditionally?
    Ms. Cundy. Well, we did sign the U.N. Global Compact which, 
of course, commits us to insuring that we have in place 
policies that respect human rights. And that is an 
international document. So, I would say that women are at risk 
around the world in any circumstance in which they find 
themselves vulnerable. I think that by training our hotel 
employees, men and women alike, about this particular issue, it 
empowers them to a certain degree that they feel more confident 
that their company would not retaliate should they, themselves, 
run into an uncomfortable experience.
    Mr. Payne. Thank you very much.
    Mr. Bales. Mr. Payne, if I may.
    Mr. Payne. Yes.
    Mr. Bales. I was very pleased that you raised that issue 
about flags of convenience, because we've been noticing a very 
significant increase in reports of slavery on ships, 
particularly on fishing vessels, and particularly in the 
Pacific and Southeast Asia region. Russian ships, in 
particular, but the number of reports continue to increase.
    It also seems to parallel what I think we're all aware of, 
is that increasing piracy in the world's oceans. And it's--I 
agree with you, there's a kind of shocking historical parallel 
here that we would be talking at the beginning of the 21st 
century about one of the key issues at the beginning of the 
19th century, which was about how do we deal with ships that 
are carrying slaves?
    Now, it's not slave trade any more, but it's enslaved ship 
workers whose treatment is horrific, and we've had reports of 
simply the murder of workers on shipboard. And, of course, 
their bodies are very easy to dispose of at sea.
    It raises some very interesting questions, I think 
especially for the United States Government, in that we have 
from the very beginning of our Republic, a series of Supreme 
Court rulings that made it possible for ships that seem to have 
been carrying slaves to be confiscated by the Government based 
on, according to the Supreme Court ruling, circumstantial 
evidence of that, not direct evidence, as well as the fact that 
we, and particularly the British Navy took part in anti-slavery 
work of patrols looking for such ships that had slaves on 
board.
    There's a question about whether our existing long 
neglected legal mandates in that direction actually would 
expect us to take on, again, the responsibility of dealing with 
people who are in slavery on board ships out at sea outside of 
our jurisdiction.
    I'd point you to the work of Tobias Wolff, a professor at 
the law school at Stanford, who has published on particularly 
that issue, and suggests that probably we should be considering 
what our responsibilities are in that way. Thanks.
    Mr. Payne. Well, you're actually--as you may know, the 
abolition of transatlantic slavery was pushed, of course, 
originally by Mr. Wilberforce in Great Britain, and the U.S. 
finally also approved the abolition; although slavery 
continued, but there was a law that said that if taken at high 
sea they can be returned, and usually went to Sierra Leone. 
That's what they called the Freetown, as the capital of Sierra 
Leone long before Liberia became a place for ex-enslaved 
people.
    I think that it is something that I, ironically, just 
happened to have spent several days in Connecticut a few days 
ago where they were commemorating Harriet Beecher Stowe's book, 
``Uncle Tom's Cabin,'' which exposed slavery in the United 
States, and Lincoln actually gave her credit for actually 
bringing this issue. It was a best seller, as a matter of fact, 
that year. And the Amistad, I think which was the case that 
John Quincy Adams came out of retirement as a former President 
to take the case of these Caribbean enslaved people who 
overtook the Amistad, and won that case. That was the first 
case in American history that went toward people who had been 
in bondage.
    So, this is an area that I have had a long interest in, and 
certainly something that we are going to try to continue. There 
are many, many problems in the world, and we can't deal with 
them all, but I think this is one that's been around for a long 
time. And like I said, with the increase in piracy not only in 
the area of the Somali region, but in other parts of the world 
it's happening, it's increasing quietly.
    And the other problem with this is that in many instances, 
the health of the workers are not checked out, and diseases can 
be--you've got products and persons who are working in these 
substandard conditions, certainly we're having a hard time 
getting health care in the U.S., you know, for everyone, so you 
can imagine some people working in the bowels of a ship from 
Malaysia, or Singapore, or somewhere in Africa on these ships 
working. So, there are tremendous potential for catastrophic 
problems that can engulf us in this nation, and the world. So, 
it's something I think we need to pay a little bit more 
attention to.
    Of course, as we know, resources are becoming more and more 
scarce for everything, so it's difficult time to try to start a 
new initiative, that's for sure, and we're trying to hold on to 
what we have already, which is going to be diminished.
    So, these are just issues I think that will come up in the 
future, and I appreciate all of you for what you do to assist 
us in public policy to give us good ideas to try to put it into 
legislation and move forward. Thank you very much. Thank you, 
Mr. Chairman.
    Mr. Smith. Thank you. Let me just conclude with a couple of 
very quick questions, and note that without objection a 
submission to the record from the United States Conference of 
Catholic Bishops, and testimony from Julia Ormond previously 
given here at the Helsinki Commission will also be made a part 
of the record from her group, ASSET.
    Let me just ask first to Mr. Kowalcyzk: 6.2 million 
signatures, 50 countries--how do you choose what it is in each 
respective country that you will campaign on? Does the TIP 
Report help?
    And let me ask all the questions, and then please, all of 
you answer. Secondly, to Ms. Rivard, you pointed out that 30 
young girls were headed from Zurich to Chicago on Swiss Air. 
Has Swiss Air shown an interest now in your training? You also 
mentioned the TSA attended the Airline Ambassadors training at 
Dallas/Fort Worth around the Super Bowl of last year. Does TSA 
normally get training, or is that something that needs to be 
institutionalized?
    Let me ask perhaps Mr. Bales and Mr. Abramowitz, if you 
would, SB 657, the California Transparency and Supply Chains 
Act of 2010, obviously covers about, according to testimony we 
received, about 80 percent of the corporations; will that 
affect the corporations that are doing business, or as part of 
their supply chain coming out of DR Congo? What is the value-
added of a Federal law? Is it that they report to the SEC? Do 
they get the other 20 percent? Is it that it is a Federal law? 
If you could speak to that.
    And, finally, Mr. Abramowitz, you might want to speak to 
this, and this is a more generic question, but Nancy Ely-
Raphel, John Miller, Mark Lagon, Luis CdeBaca, ambassadors, and 
the first, obviously, she was a director, all had an upward 
fight with other people in the State Department who simply did 
not want to recognize trafficking as a severe problem.
    There's always this internal warfare that goes on within 
State, as you know; how do we get to the point where, at least 
for the first stage, the naming of the countries, is done based 
absolutely on the record of those countries' performances, and 
whether or not part two, meting out punishments, that is to say 
penalties, that might be more of a political process based on 
what we think we might be able to achieve.
    But I know, regardless of the administrations, Bush 
administration, Clinton, although he left before it was 
implemented, Obama, his administration, there's always this 
tension between the vested interest, the people who think that 
statecraft requires that human rights get subordinated to an 
asterisk on page four. And I'm deeply concerned about that.
    It seems like we're always in this fight to get countries 
added to Tier III that ought to be on Tier III. You were very 
much a part of the effort to get the parking lot of being on 
the Watch List 2 years, or you are lowered. We have this 
problem, and how can we fix it, if you have any thoughts along 
those lines?
    And one last question, Ms. Cundy. The concierges often are 
asked--in your video it was very clear that somebody who is 
being asked a question and he immediately saw that this was a 
problem--what kind of training do they get? Because very often 
they're asked in a hotel where can we go for church, where can 
we go for entertainment, best restaurants, and certainly there 
needs--there's an understanding by the concierges where the 
traffickers and the exploiters are. What kind of training do 
they get to ensure that they're not wittingly or unwittingly 
being complicit in trafficking?
    Mr. Kowalcyzk. That's a lot of questions, and I'll tackle 
the first one, which has to do with the fact that it is a 
worldwide issue, and the needs around the world are different.
    The Body Shop's ambition was not to become an expert in 
this subject, but to provide a platform to allow people around 
the world to have a common platform and a voice. For expertise, 
we relied on our partnership with ECPAT, as subject matter 
expert as it related to finding and helping to create action 
agenda items that were relevant for each country for the stage 
of development of where that country was. So, there are two or 
three things that I would point to.
    One of them is that while the topic is difficult no matter 
what country you bring it to, the response has been universally 
supported from both our customers' point of view, and our 
associates' point of view, which is terrific.
    Secondly, ECPAT exists on a worldwide basis, but it's not 
the worldwide part of it, it's the local connection points and 
the number of affiliates that they're interacting with that lay 
out the objectives by country that have made a difference.
    We committed at the beginning of the campaign that we would 
make these objectives measurable and trackable, so we created a 
scorecard. I'm sorry, we didn't, ECPAT did in conjunction with 
support from The Body Shop, and the scorecard is something that 
allows us to be able to track, to make sure that progress, in 
fact, is being made.
    And third and finally, we also committed that a global 
report would be created in order to be able to, first of all, 
raise awareness and to allow for involvement. Secondly, to show 
that progress can happen, and it doesn't happen at the same 
pace in every part of the world, but progress is progress.
    Ms. Rivard. Yes. I wanted to point out that there is a need 
for coordination among law enforcement, and among airlines, and 
different sections of airlines. At our training, I didn't 
specifically ask the TSA employee whether they received human 
trafficking training, but they were very anxious to do that, 
and to coordinate with the airport coordinator, with this SOC, 
Special Operations Command at American Airlines.
    The pilots said they didn't receive any training like this, 
and lots of times if a flight attendant reported something they 
wouldn't take it seriously. And sometimes they said when they 
called in a problem, that SOC didn't take it--and let's say the 
called for a medical emergency, and a wheelchair showed up, 
there is a need for coordinated response. I know some meetings 
were started called ``Blue Lightning,'' with Homeland Security, 
TSA, FBI, ICE, the airlines where we come up--and that's what 
I'm asking for congressional review of our training, where we 
come up with a coordinated unified response among the issues.
    The other thing is, if there could be some kind of economic 
incentive for the airlines to sign ECPAT, because right now, I 
mean, there are a lot of people being trafficked, and somebody 
is paying for those tickets. The bottom line, the airlines are 
making money, and maybe they don't want to disrupt that, or by 
taking a public stand make themselves a target to the cartels.
    If something is legislated, perhaps this would be a 
protection for them, and certainly creating an economic 
incentive for them to go in the right direction.
    Mr. Bales. I'm going to add a tiny bit to say when we 
conducted a piece of research with the National Institute of 
Justice on trafficking in the United States, one of the top 
needs we found was training across the board.
    We spoke to border patrol agents who ask us where can we 
get training, border patrol agents. So, I just strongly say 
TSA, Border Patrol, I think all Peace Corps volunteers should 
have anti-trafficking, anti-slavery training because they are 
going to be in places where they can recognize it.
    And I'll just say that we're even in talks with the Church 
of Latter Day Saints to have trafficking training for all the 
young people that they send out as missionaries around the 
world. We're looking for anyone who is going door-to-door and 
talking to them about what kind of training we can see that 
would be effective.
    Now, in terms of the effectiveness, or the value-added of a 
Federal law patterned on that California law, I think there's 
two parts. Obviously, the simple part is that it would cover 
those companies that are not operating in California. That goes 
without saying. But I think the key here is really about 
creating a culture, creating an atmosphere in the United States 
in which corporations and consumers are working together and 
thinking through what they might do to ensure that they are not 
consuming slave-made goods.
    At the moment, we have something of a strange notion of a 
moral watershed on the supply chain. And most consumers believe 
that there's some kind of moral watershed that separates them 
from the corporations, and the wholesalers, and the suppliers 
all the way back, that somehow being a consumer is a pure act, 
but every step before it is somehow to be tainted. But the fact 
is that there is a moral watershed, but it actually exists with 
the slaveholder and the slave master. Those criminals are 
guilty of enslavement.
    The people who come after, the suppliers, the transporters, 
the wholesalers, retailers, the consumers aren't guilty, but 
they are all responsible. And it's about creating that 
atmosphere and culture of responsibility that we think that 
that kind of transparency lies, a first step to build that 
culture of responsibility.
    Mr. Abramowitz. Mr. Chairman, just adding to that before I 
turn to your second question to us. I think that there is also 
a difference having this kind of a transparency provision at 
the Federal level. First of all, there is a role that the SEC 
can play that in terms of someone who can look at this issue, 
not that they'll be spending a huge amount of resources, but 
they can have some impact on looking at the various different 
disclosures that are made.
    Second of all, I think it's different if you're trying--one 
of the things that I think the TVPA was just marvelous at is 
that it created a standard by which other countries were forced 
to look at, and see that they needed to improve their own 
internal work on the particular issues that you so masterly 
brought through Congress.
    So, if we have a California state law, it's one thing. If 
we have a U.S. Federal law, it's the demonstration effect. It's 
the ability to go to other countries and say you need to be 
regulating your companies, which will force them to be looking 
at the supply chains within their own countries; which, 
frankly, as we've been discussing all afternoon is really where 
a lot of these significant issues come about.
    I think that you raise a very delicate issue in terms of 
the State Department, and how we look at it. As I indicated in 
my testimony, we need to improve the overall unity of effort 
within the State Department.
    The Trafficking in Persons Office has done, I think, a 
marvelous job throughout its time, and it's in part due to some 
of the very strong leadership that the office has had over the 
course of its existence. But we need greater effort from both 
the regional bureaus that are responsible for the bilateral 
relations, as well as the Embassies, and the ambassadors, 
themselves. So, a couple of points.
    First, I do think we have to think about this in historical 
perspective. I was not here at this time. I think you were a 
little bit closer to it, but when the Human Rights and 
Democracy Bureau was first created under the Carter 
administration, as I understand it, it was very, very 
difficult. They had a long time where they were completely 
pushed aside, and really had no strong role in the policy 
formulation process.
    People can question how much progress they've made, but I 
think they are very much in the mainstream of the State 
Department, and have very important roles, whether it's in 
international negotiations dealing with a variety of different 
issues that are difficult to work on. So I think that even 
though 10 years is a decade, still I think the life of this 
office within the institution is short. We need to continue to 
have strong leadership, continue to sustain it, continue to 
provide it resources.
    Second, I think that we need to help generate more data. 
One of the proposals that I didn't discuss, but it's in my 
testimony, is about giving G/TIP the ability to do certain 
targeted research in certain places. If there is data that is 
irrefutable, it makes it more difficult for the political lens 
to be put on to issues. So, data which, of course, is a huge 
struggle in this area, as several different members of the 
panel have referred to today, is something that to continue 
working on, including in our own country.
    Third, in terms of trying to look at how we can improve the 
State Department, and looking at the whole effort, one hopes 
that there will continue to be senior leadership at the 
Department, and that questions regarding human trafficking are 
raised as confirmation processes move forward.
    I'm in a conversation with ATEST members to try to come up 
with a battery of questions that we can try to provide to the 
Senate Foreign Relations Committee as a way of making sure that 
they understand that for every ambassador, there is going to be 
some accountability with respect to the Senate and members of 
the Senate.
    I think that extends here, too. You know, schedules are 
very challenging here, but when there are Assistant Secretaries 
of State from the regional bureaus who come before the 
committee, I think you or others who are interested in this 
issue, raising this issue not only in questions for the record, 
but actually orally raising these kinds of issues can indicate 
that this is an issue that's not going away, that they have to 
deal with this issue in order to try to succeed in their 
positions.
    I think that people in the State Department are generally 
people of goodwill. They all believe that these abuses are 
heinous. It's when they try to look at these issues in this 
broader perspective; but, honestly, the very wide range of 
issues, that it becomes difficult for them, say why should we 
be singling this out as an issue that we should have sanctions 
on, as opposed to all the other complicated issues that I have 
to deal with everyday. And we need to change that calculus, 
perhaps through some of the ways that I just described. Thanks.
    Ms. Cundy. Mr. Chairman, if a guest asks a concierge for 
some kind of sexual services which are illicit, they're 
instructed to not provide recommendations. If a guest asks for 
some other kind of entertainment in a similar vein which is 
legal, they might be instructed to go to a certain club, or 
disco, that type of a thing. But I don't know, I guess it was 
Mr. Bales who mentioned the realistic standards and the supply 
chain. It's just hard to know whether or not at any of these 
establishments the workers are there voluntarily, or if they're 
coerced, or victims of trafficking.
    Mr. Smith. Thank you. Okay.
    One final question, and that is to Chai Ling and that would 
be, it is in my experience, rightly or wrongly, that when it 
comes to China, very often human rights are low on the totem 
pole, as I say.
    Right before the Olympics, Frank Wolf and I traveled to 
China, and we brought a list of 732 political prisoners, we 
brought issues related to trafficking. The person, the woman 
who was handling trafficking for the Embassy was outstanding, 
crackerjack, knew what she was talking about. We brought up 
other issues of Internet problems, the censorship issue, the 
Dalai Lama, all the religious freedom issues, tried to meet 
with house church people, were denied it. They were all 
arrested except for one. It was their call that they wanted to 
meet with us.
    The point was, when we met with the U.S. Ambassador, he, 
very noble person, was more concerned, it seemed, as to what 
venue he was going to be attending, track and field, or some 
other, than the human rights, the whole basket of issues, 
including human trafficking.
    Fast forward to right now, we have just picked, or the U.S. 
administration has picked, a new ambassador who is very, very 
focused on trade, an accomplished man when it comes to 
commerce, having headed up Commerce.
    Do you have concerns that our Embassy is not responsive to 
the one-child issue, in general, and its impact on trafficking? 
Luis CdeBaca, I believe, gets it, and is very concerned about 
that issue, and sees the nexus with one-child policy and its 
impact, consequentially, on trafficking victims, and it's only 
going to get worse. But are you convinced that the new 
ambassador being deployed gets it, because the past has been, 
regardless of illustration, less than stellar, at least from my 
point of view, and past is over prologue.
    Ms. Chai. Well, thank you, Chairman Smith. I really 
appreciate the opportunity to just focus the spotlight on China 
again, that in the past China's human rights abuses have been 
left mostly at the level of lip service, very little action has 
been taken. And the most recent article in Newsweek discussed a 
nation with men without women, and really revealed the serious 
implications of a country with such a massive quantity of 
excess young men who are restless, and potentially can lead to 
a very aggressive military expansion policy. History has proven 
from those scholars and experts that for countries like Germany 
and Japan, when they have male youth bulge, imbalance tends to 
lead to international war.
    So, that's the situation we're really facing with China. As 
we start making this argument connecting the current massive 
human right abuses under one-child policy with the threat to 
our future and our peace, both to the United States and to also 
the world at large, we have seen renewed interest from both 
parties' congressional leaders. I just met with Ambassador 
Verveer before I came to the hearing. She has also expressed 
interest to form a bipartisan coalition to really address this 
issue. And she expressed that if we get together we could 
potentially stop this once and for all.
    So, I am excited with a cautious optimism, but I want to 
thank you for your hearing, and your commitment, and your 
three-decade long leadership on this issue. You have been doing 
this consistently, even though sometimes you're alone. But you 
have not given up, so I thank you for your leadership.
    Can I add one more thing? About how China's one-child 
policy is leading to trafficking to the United States, if I 
may. We have cases which have not been resolved in which 
Chinese women under the one-child policy, to escape, come to 
the United States to have a chance to give birth to a son, but 
they end up being trafficked into this country. Their traffic 
route is through Mexico, and typically they are raped 
repeatedly, and they eventually are trafficked in through 
buses, and then to New York. And now we don't exactly know 
their final location.
    Once they arrive in New York, they're immediately harassed, 
they say they have to pay up to $90,000 for the trafficking 
fee, but they don't have the money, so they have to commit to 
service; otherwise, the rape pictures will be sent to their 
home and family, so they'll be shamed forever in their 
villages. So, they are coerced into agreeing to a labor 
contract, but they are currently working in Chinese 
restaurants, and for the past year they were only paid $10,000 
when they work 6, 7 days a week, and 16-hours a day.
    So, when we share this information with the FBI, local 
police enforcement, due to various definitions of trafficking, 
whether they are qualified for visa issue, and who--because 
these women were so afraid to be deported back to China--they 
were not able to tell us exactly where the location is. And the 
FBI, law enforcement could not determine whose jurisdiction, 
authority we can go after to try to get these women help.
    So, I urge you and other congressional leaders, and 
Congressman Payne to maybe potentially look into some kind of 
amnesty, or to grant these women a chance to be protected while 
they step forward to reveal what's really going on. And the FBI 
officer would require them to come to testify in public. And, 
again, these women are terrified. They don't want to step 
forward, because they know once they do that, some of their 
family members in China will be dead. And it has happened 
before.
    So, I'd like to see some kind of protection to be given to 
these women so they can at least step forward to talk about the 
severity of this international trafficking ring. Now the issue 
is not just China's gangsters, but they're connecting with 
gangsters in Mexico, and to this country, so we don't know how 
big a problem we're dealing with right now, but certain effort, 
and attention, and international collaboration need to take 
place to provide these victims some chance to speak out of the 
truth.
    Mr. Smith. Thank you. They can get protection under our 
current law, but you can share all of that very specific 
information. They could also get asylum. And, frankly, if they 
are of some help to law enforcement, it would be appreciated, 
but we'll follow up on that with you.
    Anything further our panelists would like to add, or Mr. 
Payne?
    Mr. Payne. Just on that also, in testifying they can--I 
think arrangements could be made that they could testify 
without their identity being known. There are international 
cases in Arusha with the genocide in Rwanda where the witness 
is protected from knowing who it is.
    Secondly, I just have a quick question. If the Government 
of China realizes what is happening, and with the growing 
gender disparity between male and female, there can certainly 
be a real problem on your hands with young men who are 
restless. One, they turn to gambling. Two, they turn to 
drinking. After they are drunk and they lost their money, then 
they turn to fighting. So, this can be a growing security 
problem for the PRC.
    I wonder if you think that--we all know it, and they all 
know it, and if they project the anomaly that will continue to 
grow, do you think that they would finally decide that perhaps 
this policy of encouraging, and much of it, I guess, is 
inferred, a person would like to have a boy. I mean, it's all 
around the world, even in the United States. I had a friend 
say, ``It's a boy,'' I said, ``Well, what would you say if it 
was a girl?'' Be as enthusiastic. So, we know that that is just 
what happens everywhere.
    But if it starts to become a real problem, they can't put 
them all in--you can't have a military of 50 million people. I 
mean, you've got to do something with these men. So, I wonder 
if they will start thinking about maybe amending, only not 
because they've changed in their heart, but because it becomes 
a massive security problem for them.
    What do you think? I mean, maybe too far in the future, but 
it has to be something that they know, too, and are grappling 
with, I'm sure.
    Ms. Chai. Exactly, I think. Congressman Payne, we thank you 
for your statement, and your sense of urgency. That's exactly 
the problem we're facing right now, that even the Federal 
Government's Family Planning Committee member last October 
showed concerns of this growing gender imbalance, and their 
strategy and policy is they're going to go after these people 
who abort the baby girls very severely.
    So, on one hand we applaud their paying attention to this 
problem right now. So, they're two-fold. One is ending one-
child policy as soon as possible. It's really a necessary step 
to basically ending that growing gap of gender imbalance, to 
end sex trafficking, and massive potential social instability. 
That's the first and foremost need and it should be done.
    The second front on the gendercide part is to combat 
China's, or Asians' overall culture of son preference. Yes, all 
cultures have some level of son preference or male preference, 
but to what extent will the female side, the girl, the women be 
sacrificed in exchange for getting their son?
    Under the one-child policy, where only one child is allowed 
to survive, the whole practice, that whole culture led to 
massive killing of baby girls.
    On June 1st, we showed another little clip of a documentary 
where in India, a mother killed eight of her own baby girls, 
because she really want to have a son. So, in China many of 
these killings are taking place in a very early stage when they 
detect they are pregnant with a baby girl. They abort the baby 
girl, or the mother after she found she just gave birth to a 
baby girl, she will be immediately locked up, the baby girl 
will be grabbed out of her arms, and she'll be disposed of by 
the husband or the mother-in-law.
    And in that video tape you saw that young couple who did 
not have a birth permit, but gave birth to a baby girl. And 
when the baby girl was only 40 days old she was forced to be 
sold. So, these are massive problems creating the issue we're 
dealing with right now, a crisis of what do we do with China's 
37 million single men? What do we do with 163 million men 
around the world?
    Trafficking definitely is not going to be a problem going 
away overnight, but it requires a level of urgency both from 
congressional leaders, and also from those in the private 
sector, and the NGOs. So, I commend all of you who are here for 
your moral leadership, and your amazing commitment to this 
effort.
    Mr. Payne. Well, thank you very much. And I think it's 
something that we need to deal with worldwide on the value of 
women. Even in our country, when you hear a descendant of say a 
former President, you know, it's usually the one that keeps the 
name, the male, Teddy Roosevelt, Franklin Delano Roosevelt. 
They were kind of related. When it tends to be a female, too 
many instances the name--there could still be as many relatives 
of the former outstanding people in every country, but it seems 
like if you have that last name of this outstanding President, 
or King, or Emperor that gets more attention, like the 
Habsburgs in Austria. It's a Habsburg, you know that it's 
usually the man. But there has to be as many female Habsburgs, 
but you never see them highlighted. You don't even know who 
they are. Somebody came up to me and said, ``I'm a Habsburg,''I 
said, ``Oh, great.'' But the men you do know. So, it's a 
problem I guess no bigger than the group of us here will be 
able to solve, but it is something that we need to--hopefully, 
it will take hold in some international organizations and 
really the status of women, just in general. It shows how 
damaging the second-class citizenship of women really has 
global impacts.
    Thank you, Mr. Chairman.
    Mr. Smith. I'd like to thank our very distinguished panel, 
extraordinary panel of experts for your insights and wise 
council to help us. You've been very, very generous with your 
time today, and the subcommittee is very appreciative of that. 
And you've given us a number of actionable items for the 
reauthorization which is imminent. So, I do thank you 
especially for that, and look forward to seeing you all again.
    The hearing is adjourned.
    [Whereupon, at 6:12 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<F-dash>\<Copyright><pound><Rx><Rx><pound><script-l><script-l><variable>
                      stat<box><acctof><box><Rx>t\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


      <F-dash>\<n-iden-3><pound><box> stat<box><acctof><box><Rx>t\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                 <F-dash>\<because><F-dash><Register> 
<n-iden-3>a<variable><Rx><box><o-times><Copyright><star><box><diamond>a<star>
                                   a\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


  <F-dash>\<because><F-dash><Register> <n-iden-3><pound><box><o-times>
                <Copyright><star><box><diamond>a<star>a\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



   <F-dash>\<Copyright><star><box><diamond>a<star>a<ellipse><ellipse>
                     <F-dash><func.-of><Register>\

   Material submitted for the record by the Honorable Luis CdeBaca, 
   Ambassador-at-Large, Office to Monitor and Combat Trafficking in 
                   Persons, U.S. Department of State

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


             <F-dash>\<Register><careof>va<natural><star> 
                     <F-dash><func.-of><Register>\

 Material submitted for the record by Ms. Nancy Rivard, president and 
               founder, Airline Ambassadors International

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Rivard FTR deg.__

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               


     <F-dash>\<diamond>b<natural>a<acctof><pound>w<careof>t<check> 
                     <F-dash><func.-of><Register>\

Material submitted for the record by Mr. David Abramowitz, director of 
            policy and government relations, Humanity United

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Abramowitz FTR deg.__

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               

              <F-dash>\<Hoarfrost><acctof><careof>t<star> 
                     <F-dash><func.-of><Register>\

   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
   chairman, Subcommittee on Africa, Global Health, and Human Rights

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Smith FTR deg.__

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
